<html>
<title> - [H.A.S.C. No. 113-68] NUCLEAR WEAPONS MODERNIZATION PROGRAMS: MILITARY, TECHNICAL, AND POLITICAL REQUIREMENTS FOR THE B61 LIFE EXTENSION PROGRAM AND FUTURE STOCKPILE STRATEGY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-68] 
    NUCLEAR WEAPONS MODERNIZATION PROGRAMS: MILITARY, TECHNICAL, AND 
       POLITICAL REQUIREMENTS FOR THE B61 LIFE EXTENSION PROGRAM 
                     AND FUTURE STOCKPILE STRATEGY

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 29, 2013


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-075                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, October 29, 2013, Nuclear Weapons Modernization 
  Programs: Military, Technical, and Political Requirements for 
  the B61 Life Extension Program and Future Stockpile Strategy...     1

Appendix:

Tuesday, October 29, 2013........................................    27
                              ----------                              

                       TUESDAY, OCTOBER 29, 2013
   NUCLEAR WEAPONS MODERNIZATION PROGRAMS: MILITARY, TECHNICAL, AND 
 POLITICAL REQUIREMENTS FOR THE B61 LIFE EXTENSION PROGRAM AND FUTURE 
                           STOCKPILE STRATEGY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, 
  Subcommittee on Strategic Forces...............................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Cook, Dr. Donald L., Deputy Administrator for Defense Programs, 
  National Nuclear Security Administration.......................     7
Creedon, Hon. Madelyn R., Assistant Secretary of Defense for 
  Global Strategic Affairs, U.S. Department of Defense...........     3
Kehler, Gen C. Robert, USAF, Commander, U.S. Strategic Command...     5
Hommert, Dr. Paul J., President and Laboratories Director, Sandia 
  National Laboratories..........................................     9

                                APPENDIX

Prepared Statements:

    Cook, Dr. Donald L...........................................    51
    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces...................    33
    Creedon, Hon. Madelyn R......................................    36
    Hommert, Dr. Paul J..........................................    59
    Kehler, Gen C. Robert........................................    43
    Rogers, Hon. Mike............................................    31

Documents Submitted for the Record:

    Department of Energy and Department of Defense documents 
      concerning B61 Life Extension Program......................    73
    Letter from former military commanders of U.S. Strategic 
      Command and Strategic Air Command..........................    84
    Letters from European parliamentarians.......................    85
    Mr. Turner August 16, 2013, letter to R.W. Knops M.A., Member 
      of Parliament, Netherlands.................................   108

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................   113

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................   132
    Mr. Carson...................................................   138
    Mr. Coffman..................................................   132
    Mr. Cooper...................................................   120
    Mr. Garamendi................................................   134
    Mr. Langevin.................................................   130
    Mr. Nugent...................................................   138
    Mr. Rogers...................................................   117
    Ms. Sanchez..................................................   125
   NUCLEAR WEAPONS MODERNIZATION PROGRAMS: MILITARY, TECHNICAL, AND 
 POLITICAL REQUIREMENTS FOR THE B61 LIFE EXTENSION PROGRAM AND FUTURE 
                           STOCKPILE STRATEGY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                         Washington, DC, Tuesday, October 29, 2013.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I want to welcome everybody to 
this hearing of the Strategic Forces Subcommittee and our 
hearing on nuclear weapons modernization programs. This 
subcommittee has been tracking this program--or these programs 
very closely, and this hearing is about digging into one in 
particular, the B61 Life Extension Program, or LEP.
    Our distinguished witnesses all play important roles in the 
B61 LEP from a variety of angles. The witnesses comprise the 
key leaders responsible for the policy, military and 
operational requirements, program and oversight, and technical 
and program execution on the LEP. They will help us understand 
the details of the program, the requirements that are driving 
it, its history and current status, and its outlook for the 
future.
    Our witnesses include the Honorable Madelyn Creedon, 
Assistant Secretary of Defense for Global Strategic Affairs, 
U.S. Department of Defense; General Robert Kehler, Commander, 
U.S. Strategic Command, also known as short-timer. He has got 
about another month before he retires on us. And we are going 
to be sad to see you leave, by the way.
    General Kehler. Thank you.
    Mr. Rogers. Dr. Donald Cook, Deputy Administrator for 
Defense Programs, National Nuclear Security Administration; Dr. 
Paul Hommert, President and Laboratories Director, Sandia 
National Laboratories.
    I appreciate your taking the time to prepare for this 
hearing. I know it takes a lot of time and effort, and we do 
appreciate it, because it is very helpful to us. We always 
appreciate your contributions that each of you make for your 
country.
    I am going to keep my statement very brief so that we can 
have the maximum time possible for questions and answers, but I 
do want to take a moment to highlight one issue: the 
misconceptions and misinformation that we see in the public 
discourse on the B61 LEP. We have seen massively uninformed 
editorials and articles out there on the B61; arguments that 
NATO [North Atlantic Treaty Organization] should pay for the 
LEP, despite this being a U.S. nuclear weapon that we need for 
our own strategic deterrent; arguments that the B61 doesn't 
need to be rebuilt now, despite clear testimony to the contrary 
from our lab directors and military commanders, including 
General Kehler and Dr. Hommert; arguments that there is a 
reduced scope option for the LEP that would cost less and still 
meet requirements, despite numerous statements and documents 
from the administration showing the exact opposite is true.
    The list goes on and on, and I plan to get into this during 
the questioning period. We will engage in a bit of myth-busting 
today and lay out the clear, undeniable facts about this 
critical program.
    For now I would like to introduce for the record a series 
of documents provided to the committee by the DOD [Department 
of Defense] and DOE [Department of Energy] that clearly shows 
reality. And without objections, those will be submitted.
    [The information referred to can be found in the Appendix 
beginning on page 73.]
    Mr. Rogers. It is time to leave aside the misinformation 
and fantasy that has seeped into the public debate, and deal 
with the real world.
    Along the same lines, I offer the reality of military 
perspective. I would like to introduce for the record this 
letter we received from four commanders--from four former 
commanders of U.S. Strategic Command and its predecessor 
command. And without objection, those will be submitted.
    [The information referred to can be found in the Appendix 
on page 84.]
    Mr. Rogers. These four retired senior officers eloquently 
summarized why cuts to the B61 LEP, as recommended by only one 
of the four congressional committees, would not only harm the 
U.S. deterrent, but also have major negative impacts on our 
allies and our nonproliferation goals.
    Thank you again to our witnesses. I look forward to this 
discussion. And with that, let me turn to our ranking member 
today, Mr. Garamendi of California, for any statement that he 
may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]

    STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
          CALIFORNIA, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Garamendi. Thank you, Chairman Rogers, and thank the 
witnesses for participating in what is going to be a very 
important hearing.
    Mr. Cooper could not be here today, and he asked that I sit 
in in his chair. I will do so as best I can, and I will read 
his statement quickly, or I will stop halfway through and put 
it in the record.
    ``President Obama in the Nuclear Posture Review laid out a 
strategy for maintaining a safe, secure, and reliable arsenal, 
while pursuing further nuclear weapons reductions and 
strengthening nonproliferation. In this context we must 
understand what investments are necessary to carry out an 
effective strategy and maintain a credible nuclear deterrent to 
meet post-cold war threats in an era of constrained budgets.
    ``First with respect to the B61, there are concerns about 
the cost and complexity of the current planned B61 life 
extension and whether they are necessary for extended 
deterrence in the long-term. The administration is embarking on 
a $10 to $12 billion program, the most expensive life extension 
ever undertaken. This cost includes the warhead life extension 
program done by the National Nuclear Security Administration 
[NNSA], estimated to cost $8.1 billion to $10.1 [billion], and 
the Department of Defense's cost estimate of the program 
evaluation office, CAPE, added $1.6 billion required a new tail 
kit for the Air Force, bringing the total cost over $10 
billion.
    ``We must better understand why a less expensive 
alternative, notably the 1E LEP option, is not being pursued. 
How long do we plan to keep the B61s deployed anyway? What 
constitutes credible political reassurance for our allies, and 
what reductions in the number of nuclear weapons are planned, 
and what safety risks are associated with forward-deployed B61? 
Former Secretary Sam Nunn recently wrote that today tactical 
nuclear weapons in the Euro-Atlantic region are more of a 
security risk than an asset to NATO. Is he correct?
    ``Second, more generally, we cannot consider the B61 in a 
vacuum. We must prioritize. And how do we plan for affordable, 
yet strong and effective nuclear deterrence?''
    I think what I will do is to stop there and put the rest of 
it in the record. Thank you.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 33.]
    Mr. Rogers. I thank the gentleman.
    And now we will go to our witness statements, and we will 
remind you we would like you to summarize your statement for 5 
minutes. And we will start with the Honorable Secretary Madelyn 
Creedon. You are recognized for 5 minutes.

 STATEMENT OF HON. MADELYN R. CREEDON, ASSISTANT SECRETARY OF 
   DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Creedon. Thank you very much, Chairman Rogers, 
Ranking Member Garamendi sitting in for Mr. Cooper, 
distinguished members----
    Mr. Garamendi. I thank you.
    Secretary Creedon [continuing]. Distinguished members of 
the Strategic Forces Subcommittee. Thank you for the 
opportunity to testify today about the importance of the B61-12 
Life Extension Program and the integrative part it plays in the 
administration's long-term modernization strategy for both the 
nuclear forces and the supporting nuclear infrastructure. I am 
pleased to join Deputy NNSA Administrator Dr. Cook, Sandia 
National Lab Director Dr. Hommert, and General Kehler for this 
discussion.
    In the June 2013 nuclear employment guidance, the President 
reiterated and clarified two key policy elements that rely upon 
the successful completion of the B61-12 Life Extension Program 
and execution of the long-term modernization strategy. The 
first is the commitment that the United States will retain a 
credible nuclear deterrent, supported by the nuclear triad, 
including the capability to forward-deploy nuclear weapons with 
heavy bombers and dual-capable fighter aircraft anywhere in the 
world. The second is the approach to hedge, so that we maintain 
the ability to hedge against technical and geopolitical risk 
that will lead to more efficient management of the nuclear 
weapons stockpile. This approach will allow, in time, 
reductions in the total number of weapons, while still 
maintaining the nondeployed weapons needed to ensure the U.S. 
stockpile is well positioned to provide the needed flexibility 
to respond to any contingency.
    The joint NNSA and DOD long-term plan to manage and sustain 
the nuclear stockpile and associated infrastructure programs is 
presented in NNSA's Fiscal Year 2014 Stockpile Stewardship 
Management Plan. This plan provides the framework around which 
the new guidance will be implemented. At its heart is the 
baseline modernization strategy, also known as the ``3+2'' 
strategy. This strategy, if successful, will allow the 
consolidation of the 12 unique warhead types used today into 3 
interoperable warhead designs for use on a submarine and land--
for use on submarines and land-based missiles and 2 aircraft-
delivered weapons, the B61-12 gravity bomb and the follow-on 
standoff cruise missile replacement.
    This modernization strategy will permit hedging between the 
land and sea-based legs of the triad, reduce the size of the 
stockpile, and still maintain a sufficient hedge capability.
    The tremendous benefit of the 3+2 strategy is that over 
time, it would reduce our stockpile life--stockpile life cycle 
sustainment costs and reduce the strain on our surveillance 
resources, while simultaneously increasing the safety, 
security, and effectiveness of our nuclear deterrent with fewer 
weapons.
    The B61-12 is the first component of the 3+2 modernization 
strategy. A successful B61-12 Life Extension Program 
facilitates consolidation of four B61 types into one variant, 
and it also allows the eventual retirement of two other 
strategic air-delivered gravity bombs, the B61-11 and the B83.
    To be sure, modernization work of this kind is expensive, 
but there is no doubt that the investment, which directly 
enables our commitment to effective nuclear deterrence and 
nonproliferation, is necessary. As you know, very early cost 
estimates of the B61-12 have grown as we sought to exercise 
national nuclear weapon engineering and design skills that had 
atrophied.
    Having now finished the costing and developed a good 
baseline, we expect that any future cost growth is less likely 
to stem from technical or production costs than from difficult 
choices made by the Department of Defense and Energy to deal 
with ongoing budgetary uncertainty. Sequestration cuts, for 
example, have already delayed the design, development, and 
production schedules by several months.
    These budgetary constraints led the Department to a quick, 
prudential analysis of a possible alternative to the B61-12 
that would provide the military and deterrent characteristics 
of a gravity bomb. This analysis was not intended to substitute 
for the previous efforts in judgment of the Nuclear Weapons 
Council, but to take an objective look at other options during 
a period of at least short-term budgetary churn. If nothing 
else, this study served to validate the Department's commitment 
to the program, and, in fact, it quickly demonstrated that 
there is not a cost-effective alternative that meets military 
requirements and policy objectives of the B61-12 LEP.
    Both Departments and the administration remain firmly 
committed to the 3+2 strategy and the long-term fiscal and 
national security benefits that it presents.
    Finally, let me make an important comment about the B61's 
roles. As I previously mentioned, under the current 
modernization strategy, the B61-12 will become the only gravity 
bomb in the U.S. inventory for both the strategic bomber and 
the dual-capable aircraft fleets. The B61-12 will also be a 
critical part of NATO's nuclear deterrent, and it is equally 
important to our allies in Asia. This LEP will reassure our 
nonnuclear allies and partners that their security interests 
will be protected, leaving no need for them to develop nuclear-
deterrent capabilities of their own.
    I cannot emphasize this point enough. The B61-12 is 
critical to U.S. nuclear deterrence and is viewed by the 
administration and others as the cornerstone of our extended 
deterrence commitment to allies around the globe.
    Thank you.
    [The prepared statement of Secretary Creedon can be found 
in the Appendix on page 36.]
    Mr. Rogers. Secretary Creedon, I very much appreciate that 
statement.
    General Kehler, you are up. Five minutes.

   STATEMENT OF GEN C. ROBERT KEHLER, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Kehler. Thank you, Mr. Chairman, Ranking Member 
Garamendi, distinguished members of the subcommittee. I am 
pleased to be here as well with all of you today and my 
colleagues to discuss the B61 Life Extension Program and how it 
fits within a broader operational and stockpile strategy.
    Mr. Chairman, our Nation's nuclear forces perform three key 
functions. First, they deter potential adversaries via credible 
nuclear capabilities and effective plans; second, they assure 
our allies and partners of our extended deterrence commitments 
to them; and third, in the unlikely event deterrence fails, 
they achieve national security objectives as directed by the 
President.
    To accomplish these functions, the Nation requires a safe, 
secure, and effective nuclear force composed of well-trained 
people, modern nuclear delivery systems and warheads, an 
assured command-and-control network, and the highly specialized 
infrastructure necessary to sustain them.
    I am 100 percent confident in the ability and dedication of 
our people and the operational viability of today's nuclear 
force, but aging issues exist, and I remain concerned that the 
force requires significant investment in the midst of a very 
difficult financial period. The investments we request are 
guided by a policy-based, long-term strategy and implementation 
plan that will allow us to sustain the nuclear triad of 
delivery vehicles, enable critical improvements to our national 
command-and-control systems, and systematically extend the life 
of essential weapons in the stockpile to meet our military 
needs.
    The 3+2 strategy that Secretary Creedon mentioned, which is 
so named because it will ultimately result in three updated 
ballistic missile warheads and two updated air-delivered 
warheads, allows us to retain a highly effective and 
sustainable nuclear stockpile to address 21st century threats 
and uncertainty. From my military perspective, the 3+2 strategy 
underpins all of our initiatives to meet the new national 
guidance issued by President Obama last June, and the B61 Life 
Extension Program is the next critical step within that 
strategy.
    There are several reasons why I believe this is to be true. 
First, our recently updated nuclear employment guidance directs 
us to retain a triad of nuclear delivery vehicles, and that is, 
of course, a construct that continues to provide the Nation 
with a deterrent that is responsive, survivable, and flexible. 
The current and future nuclear bomber force is a key component 
of the triad, and arming that force with a life-extended B61 
and eventually with a follow-on to the air-launched cruise 
missile is a top priority.
    Second, the life-extended B61-12 is envisioned to be the 
only nuclear gravity weapon in the future arsenal. The B61-12 
LEP will extend the weapon's safety, security, and 
effectiveness for decades and consolidate multiple variants 
into a single design, which offers opportunities for 
significant stockpile reductions, while maintaining national 
security objectives and extended deterrence commitments.
    Third, the meaningful work being done on the B61 can be 
leveraged for future life extension programs and provide the 
impetus to develop and retain the critical workforce skills the 
United States needs to sustain its deterrence force.
    Importantly, the B61-12 Life Extension Program has been 
optimized in both scope and timing to match the throughput 
capacity of the nuclear industrial complex. Failure to conduct 
this life extension now will discard that leverage and increase 
costs of future life extension programs.
    Finally, the B61 is the only weapon in the stockpile that 
can arm both the B-2 bomber and dual-capable fighter aircraft 
deployed by the U.S. and NATO in Europe. As such, it 
contributes greatly to the foundation of U.S. extended 
deterrence around the globe. Extending the life of the B61 will 
reassure our allies and partners and will further our 
nonproliferation efforts.
    I continue to endorse the 3+2 strategy and give my 
strongest support to the B61-12 Life Extension Program, but I 
remain concerned that these substantial modernization efforts 
come in the midst of this difficult financial period. In my 
view, the need for sustained investments increases as we 
decrease the number of deployed weapons to New START [Strategic 
Arms Reduction Treaty] levels. From a military perspective, 
smaller numbers of weapons means that the quality and 
reliability of each weapon must be high.
    As we face budgetary constraints, we will examine and 
pursue every possible alternative to drive costs down, but we 
must stay the overall course that we have set to the maximum 
possible extent. The B61 LEP is the next step to sustain our 
deterrent force, and I ask for your continued support.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 43.]
    Mr. Rogers. Thank you. Very well done.
    Dr. Cook, you are recognized for 5 minutes.

   STATEMENT OF DR. DONALD L. COOK, DEPUTY ADMINISTRATOR FOR 
   DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Dr. Cook. Chairman Rogers, Mr. Garamendi, and distinguished 
members of the subcommittee, I also thank you for having me 
here to discuss the President's plans for nuclear weapon 
modernization that are focused on the B61 Life Extension 
Program and the NWC [Nuclear Weapons Council] strategy, 3+2, as 
has already been described.
    I am also pleased to be here with my colleagues. And I want 
right off to thank you for your continuing and ongoing support 
of the men and women of the National Nuclear Security 
Administration across the country, the work that they do, and 
your bipartisan leadership of some of the most challenging 
national security issues of our time. This support has helped 
keep the American people safe, it has assured our allies, and 
it has enhanced global security.
    I am here today to state how critically important it is for 
the United States to have an unambiguous and effective strategy 
to achieve the goals articulated very clearly by the President, 
first at Prague in 2009, again in the 2010 Nuclear Posture 
Review, and most recently in Berlin this June, to ensure a 
safe, secure, and effective deterrent, while reducing the 
number and types of nuclear weapons. That national strategy is 
the 3+2 strategy advocated by U.S. Strategic Command, endorsed 
by the Nuclear Weapons Council, and with congressional support, 
will be implemented by the NNSA and the DOD services.
    I would like to take a moment to discuss an integral part 
of the 3+2 strategy, which is the B61, and why your continued 
support is essential to achieve a significant reduction in our 
stockpile of nuclear bombs, while meeting the President's 
commitment to maintain a safe, secure, and effective arsenal to 
deter any adversary and to guarantee that defense to our 
allies. I will not go through further details on the 3+2 
strategy, because that has already been covered.
    I would like to emphasize the United States has already 
reduced the size of our nuclear stockpile very substantially, 
by more than 80 percent since its peak during the cold war. 
Today we have the smallest stockpile since the Eisenhower 
administration. The interoperability provided by implementing 
the 3+2 strategy you have heard discussed will allow the United 
States to reduce further its hedge against technical failure 
and geopolitical surprise, while maintaining an effective 
deterrent through a balanced and flexible stockpile.
    So on the B61, the B61 is one of the oldest nuclear weapons 
in a stockpile that has never been older, and it requires the 
refurbishment of some of its components in order to remain 
viable for years to come. The B61 has major strategic and 
tactical requirements, to which the DOD will speak further, and 
from the NNSA perspective, we are charged with maintaining the 
health of the B61 variants currently in the active stockpile 
and also conducting the life extension program on this 
important aspect of our nuclear deterrent.
    On February 12--I am sorry, February 27, 2012, the NWC 
authorized the U.S. Air Force and NNSA to begin Phase 6.3 
engineering development for the B61-12 LEP. This LEP will 
consolidate all of the existing B61 variants, also known as 
mods 3, 4, 7, and 10, into the mod 12 to provide both strategic 
and extended deterrence for an additional 20 years following 
the first production unit in 2020.
    Regarding the NWC process that led to the decision to 
choose the final scope of the 61-12 LEP, I would like to be 
very clear that the resulting decision supported the lowest-
cost option that meets threshold military requirements. For 3 
years, from 2010 to 2012, the NNSA, in consultation with the 
NWC, evaluated four major options for the 61 LEP, with many 
suboptions beyond that, before selecting the current 61-12 
design approach. The chosen option, known as Option 3B, 
maximizes the reuse of both nuclear and nonnuclear components, 
while meeting the needed design life. The option foregoes the 
newest surety technologies and instead improves security and 
safety of the bombs using somewhat older, but proven 
technologies.
    And although two of the other options had lower initial 
costs, their life cycle costs were higher, not as--as a result 
of not addressing all known aging concerns. Because of this, 
these two options would necessitate starting another life 
extension program after initial alterations in order to address 
the remaining concerns.
    Now, lastly, I would say the 61-12 LEP is really making 
good progress. We are in the second year of full-scale 
engineering development. The program has met its development 
milestones, it is on schedule, and it is on budget. Today the 
most significant risk the program faces is not technical risk, 
but uncertainty of consistent funding. However, because of the 
demonstrated success we have had to date, confidence from U.S. 
Strategic Command and the Nuclear Weapon Council has been 
sufficient to expand planning for the consolidation of nuclear 
bombs by including the future retirement of the B83 in the 
overall strategy.
    This allows, in summary, for a reduction in the total 
active and inactive number of U.S. nuclear gravity bombs by a 
full factor of two within a few years after completion of the 
61-12 LEP. And the reduction in numbers of bombs and the 
decision to use the lowest-yield variant from today's stockpile 
can reduce the total amount of special nuclear material in the 
total active and inactive number of gravity bombs by more than 
a factor of six. That is 80 percent.
    So in summary, I want to thank you for your support thus 
far and get on to the questions.
    [The prepared statement of Dr. Cook can be found in the 
Appendix on page 51.]
    Mr. Rogers. Thank you very much, Dr. Cook.
    Dr. Hommert, you are recognized for 5 minutes.

 STATEMENT OF DR. PAUL J. HOMMERT, PRESIDENT AND LABORATORIES 
             DIRECTOR, SANDIA NATIONAL LABORATORIES

    Dr. Hommert. Chairman Rogers, Ranking Member Garamendi, and 
distinguished members of the Strategic Forces Subcommittee, 
thank you for the opportunity to testify here today.
    First I would like just to take a moment to congratulate 
General Kehler on his upcoming retirement and thank him for his 
leadership of the Strategic Command. He has been a great 
partner for those of us in the nuclear security arena. Thank 
you.
    My testimony today will focus on the B61 warhead system and 
the B61 Life Extension Program. In this regard I would like to 
make the following key points. In order to sustain high 
confidence in the safety, security, and reliability of the B61 
into the next decade, it is our technical judgment that we must 
complete the life extension program currently being executed. I 
make this statement for reasons that have been documented in 
annual assessment letters by me and my predecessor for a number 
of years now, all having to do either with technology 
obsolescence or aging, not surprising for a system the oldest 
units of which were manufactured and fielded in the late 1970s 
with some components dating to the 1960s.
    Second, we are well into the full-scale engineering 
development phase of the life extension program, with the 
baseline design review now scheduled for September 2015. This 
program addresses all known aging or technology obsolescence 
issues, as I can illustrate by a comparison of 1960s vintage 
vacuum tubes now in our stockpile to be replaced by modern 
integrated circuit technology in a radar now tested 
successfully, and is the minimum program that addresses the 
threshold requirements that have been provided to us by the 
Department of Defense and the NNSA.
    To date, we have costed $253 million of the $2.65 billion 
estimated incremental costs for Sandia on the B61 LEP through 
the completion of production, which was specified in the weapon 
development cost report provided in June 2012. Furthermore, at 
Sandia we met all major fiscal year 2013 program milestones for 
the B61 LEP on or under cost, although sequestration caused 
some of the work scope to be deferred to fiscal year 2014.
    We have put in place rigorous project management expertise 
to ensure ongoing adherence to the plan for all our 
modernization efforts. We have drawn upon resources and 
expertise nurtured through our interagency work on broader 
national security challenges at our laboratory to meet the 
urgent demands of our core nuclear weapons mission, most 
notably staffing; however, the impacts both to schedule and 
life cycle costs of ongoing fiscal year 2014 budget decisions 
have yet to be established. And I have to say, from what I know 
now, it is likely they will have impact on schedule and 
potentially on cost.
    Finally, let me just end with more of a personal note. In a 
professional career now spanning some 37 years, I have had the 
extraordinary privilege to work at three institutions whose 
core responsibility is nuclear weapons: the Atomic Weapons 
Establishment in the United Kingdom, the Los Alamos National 
Laboratory, and, of course, Sandia National Laboratories. In 
that time I have worked with many exceptional individuals who 
have dedicated their professional lives to the innovation, 
science, and engineering excellence required to ensure that 
these unique devices of mankind are safe, secure, and reliable.
    I fully recognize the fiscal environment in which we are 
operating, and throughout my written testimony I have indicated 
our focus on cost management and cost efficiency; however, my 
experience deeply reminds me that nuclear weapons are the last 
place for half measures or corner cutting.
    Thank you for your support, and I look forward to your 
questions.
    [The prepared statement of Dr. Hommert can be found in the 
Appendix on page 59.]
    Mr. Rogers. Thank you very much, Dr. Hommert, for that 
comment and for your service.
    We are moving into questions now, and I want to start with 
my questions. You heard me make reference in my opening 
statement to some misinformation in the public discourse about 
this, and one is a New York Times editorial from May, and which 
I will read without objection. The editorial says, ``. . . many 
experts doubt that the B61 warheads need to be rebuilt now, if 
at all. Government-financed nuclear labs have a rigorous 
program protecting them to make sure that they still work,'' 
close quote.
    Dr. Hommert, you are the director of one of those 
government-financed labs, and the government pays you to be the 
expert to inform us as to whether or not we can ensure the 
safety, security, and reliability of these weapons. Do you 
agree with the New York Times observation in that editorial?
    Dr. Hommert. I agree that we have a rigorous program to 
attest and evaluate these annually. We certainly do that. And 
it is, in fact, that program that has provided the basis of 
information that leads me to make the statement I made. There 
are physical processes occurring in these weapons that we see 
across a number of arenas, from decay, isotopic decay, to 
polymers, to HE [high explosive], that all together require 
that we execute this life extension program.
    Mr. Rogers. So you are saying that you don't agree with 
their observation that we don't need to take action on the B61 
now, if at all?
    Dr. Hommert. Absolutely. I categorically disagree with that 
statement.
    Mr. Rogers. Great.
    Dr. Cook, let's briefly discuss the editorial statement 
that ``when all is said and done, experts say the cost of the 
rebuilding program is expected to total around $10 billion--$4 
billion more than an earlier projection.'' You provided us a 
written explanation in the documents I previously introduced 
for the record, but please walk us through the cost history 
here. What figure do you stand behind for what this LEP will 
cost? We hear a lot of misinformation on what the LEP is going 
to cost.
    Dr. Cook. Sir, I stand behind the first baseline provided 
under my signature formerly to the Congress, which is called a 
selective acquisition report. I entered that in May of 2013, 
just this year, and that was once we are into full-scale 
engineering design and after some time, this is a legal 
requirement. I have updated that once already in a following 
quarter and am ready to do that in the second quarter.
    With regard to the costs, the $4 billion number is often 
thrown around as some kind of a baseline. That was never a 
baseline. We had a very initial position in a budget several 
years ago that said we believe that the cost will be at least 
in the $4 billion range, and we prepared, as we usually do 
then, to undertake the work. At that point, no engineering work 
had been done, no design work had yet been--begun on the B61, 
and with a predecessor system, the W76, we were not yet into 
stable manufacturing. So it was a placeholder, and nothing more 
than that.
    As we went through the Nuclear Weapon Council 
deliberations, and over the course of the years which I 
mentioned, 2010, 2011, and 2012, we evaluated quite a number of 
options. The council ultimately selected Option 3B. The weapon 
design and cost report came out after we moved from the 
consideration of alternatives and Phase 6.2 into engineering 
development, which is Phase 6.3. That report was issued, and 
aside from the costs that were in that report, we have added 
only management contingency. The details remain the same.
    One additional effect, though, was caused by sequestration, 
and that struck in March of this year. That caused the first 
production unit to be slid out in schedule by 6 months, from 
2019 to March of 2020, and it caused us to increase the cost 
estimate by $244 million simply because of that single 
sequestration event.
    Mr. Rogers. Okay. General Kehler, is there a ``reduced 
scope'' option that meets minimum military requirements and 
costs less than the B61-12 design that is currently being 
pursued in this LEP?
    General Kehler. Mr. Chairman, I don't think there is any 
longer. At one time we looked at some options in the Nuclear 
Weapons Council. Early on it appeared that there might be a 
lower-cost option that these gentlemen to my left are more than 
prepared to discuss. The farther we have gone down the road in 
investigating the scope of work that needs to be done, as I 
look at this today, there is not a minimum option that is going 
to fulfill all the military requirements that we have laid on.
    Mr. Rogers. Great. Thank you.
    Secretary Creedon, the editorial calls the administration's 
decision to pursue the B61 LEP, quote, ``a nonsensical 
decision, not least because it is at odds with Mr. Obama's own 
vision,'' close quote. It further states, quote, ``Mr. Obama 
advocated the long-term goal of a world without nuclear arms 
and promised to reduce America's reliance on them. He also 
promised not to build a new and improved warhead.''
    Secretary Creedon, what do you think of this statement by 
the Times? Is the B61 contradictory to the President's visions 
and goals?
    Secretary Creedon. No, sir. It is absolutely consistent 
with the President's goals. It is very important to remember 
that there are sort of two--two points to all this. One is that 
he has been very strong that the stockpile remain safe, secure, 
and reliable, and that that remain that way as long as there 
are nuclear weapons.
    That said, he clearly has indicated that he would like to 
entertain reductions, and that he would like to entertain these 
reductions along--along with Russia, but until such time as 
that happens, it is absolutely consistent, the B61-12 is 
absolutely consistent, with the President's goals as well as 
our commitments to our allies.
    Mr. Rogers. Thank you. And thank all the witnesses.
    I yield now to the ranking member for any questions he may 
have.
    Mr. Garamendi. We are going to spend a considerable amount 
of money on the B61-12 program, but before we get into that, 
why do we need the B61? General Kehler.
    General Kehler. Sir, our requirement to deter nuclear 
attack is a military mission. This B61 weapon arms the B-2, it 
will arm the future long-range strike platform, it arms the 
current dual-capable aircraft that are forward-stationed in 
Europe as well as those of our NATO allies that maintain dual-
capable aircraft, and it is the candidate weapon to arm the F-
35 in that dual-capable aircraft role.
    It is about deterring, it is about assuring our allies of 
our extended deterrence commitment to them, and, from a 
military standpoint, it is about being able to offer the 
President a series of options that include nuclear options in 
extreme circumstances as among those from which he can choose.
    Mr. Garamendi. Are there other gravity bombs available to 
achieve this same task?
    General Kehler. There is another gravity weapon today. It 
is the B83 gravity weapon. It is different than the B61. We 
have looked very carefully at whether--and technically you 
could use the B83, so don't let me mislead you. You could 
certainly use the B83 to arm the B2, and we have looked at 
that, but on balance, when we look at the combinations of 
features that are associated with both of these weapons, and we 
look at the appeal of the B61 as a candidate to incorporate all 
the best features as we go forward, we have come to the 
conclusion that both from a military standpoint and from a 
standpoint of future safety, security, and surety in the 
stockpile, that the B61 is the best of the choices to go 
forward.
    Mr. Garamendi. So there is another bomb, the B83; is that 
what you said?
    General Kehler. There is.
    Mr. Garamendi. That could achieve the same purpose?
    General Kehler. It is a gravity----
    Mr. Garamendi. What are its shortcomings?
    General Kehler. It is a gravity weapon, but over the long 
term, we think that it has some shortcomings that----
    Mr. Garamendi. Which are?
    General Kehler. Well, one, is it has a very high yield, and 
we are trying to pursue weapons that actually are reducing in 
yield, because we are concerned about maintaining weapons 
that--that would have less collateral effect if the President 
ever had to use them, which may sound----
    Mr. Garamendi. Yes, it does sound like a strange way to use 
collateral effect on a nuclear weapon, but go ahead.
    General Kehler. Well, however, there is a direct 
relationship between yield and collateral damage.
    Mr. Garamendi. I am sure there is.
    General Kehler. And so----
    Mr. Garamendi. And with a lot of collateral damage at the 
outset.
    General Kehler. Without getting too ``Strangelove-y'' in 
here, I think that the fact of the matter is that for the B83 
and the B61, when you stack them next to one another, and you 
look at both their current capabilities to meet military 
requirements and their future potential to be the investment of 
choice as we go to the future, the B61 has come out on top.
    Mr. Garamendi. Does the B83 need to be--have life 
extension?
    General Kehler. It will eventually, but not in the same 
pace as the B61. It is not necessary immediately.
    Mr. Garamendi. When would it have to have the same kind of 
extension?
    General Kehler. I will defer to my colleagues down the 
table.
    Dr. Hommert. There will have to be some--how could I say 
it--a smaller adjustment to its subcomponent system in the next 
decade involving generators and gas transfer. That is a much 
smaller-scope activity, but that has to occur. A full-scale 
LEP, at least of the magnitude here, would not be needed for 
over a decade.
    Mr. Garamendi. There is some information that the B61 would 
be scheduled for a new LEP in 2033; is that correct?
    Dr. Cook. That comes directly out of the Stockpile 
Stewardship and Management Plan, which we have issued regularly 
and did so this year. The logic here is that it takes about 10 
years to conduct a life extension program, and if you look at 
the B61, by the time we get to first production unit, it will 
be about 10 years.
    The lifetime of the weapons that we put in the arsenal is 
about 20 years, and so about 10 years after one weapon is 
inserted into service, a life extension program would be needed 
to begin to put new systems in, replace systems in 20 years 
after the initial one. That is what the logic comes from.
    Mr. Garamendi. Dr. Hommert, when would the B83 have to be--
have its life extended?
    Dr. Hommert. Well, again, it will have--it has a couple of 
components that we would have--we have to do work on in this 
decade, right? At some point it will begin to face some of the 
same aging issues we now see in the 61, but that is certainly 
not for another decade or more. All right?
    Mr. Garamendi. So going at this from the beginning, like 
asking the question why, I am going to pursue it a bit. If I 
understand, General Kehler, there is another gravity bomb 
called the B83 that has a deficiency in that it is too 
powerful. Are there any other deficiencies?
    Mr. Garamendi. It is about flexibility for us as we look to 
the future. The weapon is not as flexible as the B61.
    Mr. Garamendi. What does ``flexible'' mean?
    General Kehler. In terms of our ability to use various 
yields that would be matched to the targets.
    Mr. Garamendi. Does the B61 have variable yield?
    General Kehler. It does at the lower end, yes, sir.
    Mr. Garamendi. And the B83, Dr. Hommert, does it have a 
variable yield?
    Dr. Hommert. Yes.
    Mr. Garamendi. So both have variable yield, but one is at a 
higher variability, and the other is at a lower variability. So 
flexibility has to do with the size of the explosion; is that 
right, Dr. Cook?
    Dr. Cook. Let----
    Mr. Garamendi. Or wherever else you want to go, so----
    Dr. Cook. Let us see. I am trying to provide some 
information to answer your question.
    Mr. Garamendi. Thank you.
    Dr. Cook. So in my remarks I said that we have agreement 
that a B61-12 LEP suitably conducted could replace the B83, 
which is the last megaton gravity bomb. So I am supporting what 
General Kehler said. There is considerable difference in 
collateral damage between the yield of a much smaller weapon. 
And these yields are classified, so we cannot describe them 
here.
    Mr. Garamendi. I understand.
    Dr. Cook. But I should also emphasize that the B83 is not 
currently compatible with NATO aircraft nor with fighters of 
the U.S., and so if one wanted to go down a different path, and 
my recollection says that the life extension for the B83 comes 
due to begin in a period of about 15 years or less.
    Mr. Garamendi. The B61, is it compatible with the----
    Dr. Cook. It is compatible.
    Mr. Garamendi. The LEP on the B61 is to make it compatible 
with future bombers and the F-35; is that correct?
    General Kehler. Right. Right. The B61 is compatible with 
all of the aircraft that I mentioned, and it will be made 
compatible with the future aircraft as well. The B83 is not.
    Mr. Garamendi. So the B83 could not be used for the F-35?
    General Kehler. I would have to get that answer 
specifically for the record for you. I think I know the answer, 
but I don't want to speculate.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Garamendi. I think you know where I am going with the 
questions. I am going to a $12 billion question here. Do we 
really need the B61 modified? Does the B83 suffice? Presumably 
this entire discussion has to do with deterrence, not with the 
tactical.
    General Kehler. Well, yes, sir, except I would offer 
deterrence is about the credibility of the military force that 
is used to carry it out, and so we have always made sure that 
our deterrence statements are backed with credible military 
forces. That includes reliable weapons, that includes trained 
people, plans to use them if we needed to, et cetera. And so 
just having the weapons isn't enough, we don't think, to say 
that we have a credible deterrent.
    Mr. Garamendi. Well, thus far in the discussion--excuse me, 
Mr. Rogers. I am going to wrap up in just a very few seconds 
here.
    The discussion thus far would indicate that we do have a 
B83 bomb that works. It is going to need some modifications 
that are apparently not terribly expensive and achievable in 
the short term; is that correct, Dr. Hommert?
    Dr. Hommert. Yes. Those modifications are planned, yes.
    Mr. Garamendi. I am sorry. They are?
    Dr. Hommert. Yes. They are planned to be executed over the 
next decade, yes.
    Mr. Garamendi. So they are already in the process of being 
determined.
    The question has to do with the deterrent. Apparently the 
B83 can be delivered by the current strike bombers?
    General Kehler. Can be delivered by the B2.
    Mr. Garamendi. B2.
    General Kehler. I am not 100 percent sure. We will get for 
the record whether it can be delivered, for example, by the F-
15E. I don't believe it can, but I don't know that for sure. I 
need to get that for the record.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Garamendi. I think I have gone about as far as I can go 
in this format.
    General Kehler. And if I could add another thing. Yes, we 
are currently planning to do some things to the B83. Until we 
get to the point where we have gone far enough in the B61 LEP, 
we intend to reduce the numbers of B83s and then eliminate the 
B83. That is what we will do. So we are not spending money 
twice here.
    Mr. Garamendi. I understand that would be wise, but on the 
other hand, if the B83 is good with some repairs over the next 
decade or more, why do we need the B61? Dr. Cook.
    Dr. Cook. From a technical perspective, since NNSA and its 
labs and plants design, develop, qualify, manufacture, certify 
these weapons and then place them into the hands of the DOD. 
Let me emphasize that the intent with the B61-12 is to replace 
the current mods 3, mod 4, mod 7, mod 10, and because we are in 
the second year of full-scale engineering, about to enter the 
third, we have built sufficient confidence among the nuclear 
weapon complex member units to retire the B83. If we did not do 
that, and we will need to do a life extension of the B83, I--
you know, I said it will be not sooner than 10 years, but not 
longer than 15 years. It will be a larger life extension. It 
will be more expensive. We will have to do compatibility with 
aircraft which don't currently fly it, and we will not have the 
basis to do that at anywhere near the cost of the B61-12. All I 
can say right now is it would be considerably more expensive, 
in my opinion, my technical opinion.
    Mr. Rogers. Thank you. We are going to be--call for votes 
in about 10 or 15 minutes, so----
    Mr. Garamendi. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Garamendi asked a great question, and I thought 
everybody covered it in their opening statements, but I want to 
give each one of you a chance to restate it. In your 
professional opinion, do we need to move forward with the B61 
LEP, yes or no? Ms. Creedon.
    Secretary Creedon. Yes. And I want to add a policy take on 
this----
    Mr. Rogers. Okay.
    Secretary Creedon [continuing]. For just a second. One of 
the things with respect to the B83 is it is--it truly is a 
megaton-class weapon. It is the relic of the cold war. And when 
we look at the forward-deployed B61s and what a B61-12 would 
provide for us, particularly in Europe, the B83 is not 
compatible with the European aircraft, and the idea of 
introducing a megaton warhead into Europe is almost 
inconceivable to me at this point. So----
    Mr. Rogers. Thank you.
    Secretary Creedon [continuing]. We need the 61.
    Mr. Rogers. General Kehler, your professional opinion. Do 
we need to move forward with the B61?
    General Kehler. We do need to move forward with the B61. We 
have looked across the B61 and B83 and come to the conclusion 
that that is the best way forward.
    Mr. Rogers. Great.
    Dr. Cook.
    Dr. Cook. Yes.
    Mr. Rogers. Dr. Hommert.
    Dr. Hommert. Yes.
    Mr. Rogers. Great. Obviously you all aren't lawyers. The 
lawyer has to expound upon it. Thank you very much.
    The gentleman from Colorado is recognized for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And you all have a key role in helping to maintain our 
deterrent, and I want to thank each and every one of you for 
the work that you do. And, General Kehler, you in particular, 
you are about to retire. I met you first in Colorado Springs, 
and you went on to Omaha from there, and I just want to say I 
appreciate your career and your service to our country. Thank 
you.
    General Kehler. Thank you.
    Mr. Lamborn. And I will come back to you for a question, if 
I can, but first, Dr. Cook, I would like to ask you briefly 
about the production plants being brought in with the fiscal 
year 2014 budget requests, including Y-12 and Pantex. And these 
two plants have been operating under short-term contract 
extensions for nearly 3 years. There have been some bid 
protests. This must be distracting for the workforce there.
    So are you concerned about the plants being able to retain 
and attract quality personnel under these uncertain 
circumstances, and do you think the Department will consider 
cancelling the RFP [request for proposal] and taking the time 
to redo the contract?
    Dr. Cook. You had two parts of a question. First part, yes, 
I am concerned about the health and well-being of the workforce 
no matter where they are, the labs, the plants, and Nevada.
    Second part of the question, with regard to contractual 
things, I cannot answer. I could say there was a statement 
yesterday about the timing in which NNSA intended to award a 
contract. I would refer you to that, but I don't have any 
personal knowledge.
    Mr. Lamborn. Okay. Thank you.
    And, General Kehler, let me ask you and Secretary Creedon 
about--and this builds on a question that the chairman asked a 
few minutes ago about the B61-12. I know one of the options 
that was considered, and I--it is displayed on this posterboard 
over here was the ``Triple Alt'' [alteration] option. How do 
those two compare? How does the Triple Alt compare to the B61-
12 option, especially looking at cost and important factors 
like that? Either one of you, or both. Both of you.
    General Kehler. I will start, sir, and then ask, again, my 
colleagues from NNSA to really describe the differences. But, 
again, when we entered the conversation about what we had to do 
with the B61 initially, there was an alternative that was 
proposed that would have done only the most critical things 
that we thought existed, the problems that we thought existed 
at the time. One of those--and this is an unclassified hearing, 
so we can provide more details for the record--but one of those 
was radar, and----
    Mr. Lamborn. Is that on the Triple Alt line, that row on 
the top there?
    Dr. Hommert. Radars, yes.
    General Kehler. It is. Don, if you want to----
    Mr. Lamborn. Can you see that okay?
    Dr. Cook. May I just address a couple--some comments on the 
chart for everybody here? The Triple Alt covers three critical 
components that do need to be improved. Dr. Hommert can speak 
more about each of these. The first is radar, second is the 
power supply, and the third is neutron generators. Although 
there is no immediate life-threatening--meaning in the next 
year--issue on B61 in these components, they all have long-term 
issues. So if you look at all of the other categories of the 
decisionmaking, you can see that falls in red block.
    There are issues with that specific LEP that are not 
resolved, and one of those is there is a degradation in warhead 
electronics internal to the bomb in its present radiation 
environment.
    If you look at the next option, the 1E option would solve 
what I just mentioned, that is, internal electronics, but it 
would be constrained only to nonnuclear life extension program. 
And so we would not do any fixes to the nuclear explosive 
package, primary, secondary or interstage, and we would have to 
come back and address those units in a separate LEP. So with a 
1E, first we would do, you know, a nonnuclear LEP, and then we 
would have to come back to do a nuclear LEP. That would be a 
more expensive approach. If you look at the nonnuclear portion, 
the first portion only, well, that is less expensive than the 
3B. But if you look at both, it is more expensive, so that is 
why I address the full through-life cost.
    You can see option 3B is the first option that meets all of 
the requirements. And when we said meets minimum requirements, 
you can see option 2C. Anywhere there is a B or a C, you can 
imagine there were A's, there were other variants. This is just 
a short rendition of the options. Option 2C, though, made step 
improvements in safety by having direct optical initiation, so 
no electrical connection to the detonators, and multipoint 
safety, too detailed for this hearing. We chose, though, not to 
take that option because it was more expensive.
    Mr. Lamborn. So it is your opinion that of all the four 
options, 3B is the best one by far? Well, it addresses all of 
the issues after detailed and extensive analysis?
    Dr. Cook. That is correct. Not only that, it has the lowest 
through-life cost of all of these options listed.
    Mr. Lamborn. And you all would agree with that?
    Dr. Hommert. Absolutely.
    Mr. Lamborn. Thank you.
    General Kehler. Yes.
    Mr. Lamborn. Thank you very much.
    Mr. Rogers. The gentlemen's time has expired.
    The gentlelady from California, Ms. Sanchez, is recognized.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you.
    So first, Mr. Chairman, I would like to submit for the 
record some letters, I know that you have already received 
them, from a lot of other Parliamentarians from other 
countries, in particular our allies, who are asking us that the 
modernization for the deployment of the B61 is a waste of 
resources for both the U.S. and the particular countries they 
come from, many of them. I would like to put it into the 
record.
    Mr. Rogers. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
beginning on page 85.]
    Ms. Sanchez. Mr. Chairman----
    Mr. Turner. Will the gentlelady yield for just one moment, 
kindly? I had received a similar letter when the members of the 
NATO Parliamentary Assembly were in from--Raymond Knops, a 
member of Parliament from the Netherlands, to which we 
responded, detailing the specific issues that related to the 
letters that you are entering into the record.
    With the chairman's consent, I would like to introduce that 
letter.
    Ms. Sanchez. Sounds great.
    Mr. Turner. Also as--as----
    Ms. Sanchez. Sounds great. I would like to have it into the 
record.
    [The information referred to can be found in the Appendix 
beginning on page 108.]
    Mr. Turner. Thank you. And then we would also----
    Ms. Sanchez. Now reclaiming my time, please.
    Mr. Turner. Thank you.
    Ms. Sanchez. Mr. Chairman----
    Mr. Rogers. Your choice.
    Ms. Sanchez. Okay. Because I didn't give him the time, you 
did. You gave away my time, Mr. Chairman.
    Mr. Rogers. We all have our faults.
    Ms. Sanchez. So I want to talk about the deterrence value 
and the military value, because I remember General Cartwright 
saying something to the effect of we lose no military value if 
we don't have the B61.
    So my question to the general and to Secretary Creedon is 
how much have our allies contributed to the cost of the B61 
Life Extension Program? Has potential withdrawal or other 
measures to provide reliable extended deterrence been discussed 
in consultation with NATO capitals? Why or why not? Is it 
possible to provide reliable extended deterrence without 
forward-deploying the B61? And have you discussed NATO 
contributing to the B61 LEP programs?
    And this all comes from the whole issue of Cartwright 
saying we have other military things that take care of this 
whole spectrum--basically, that is what he has said to us--and 
this is more of a political value. So can you speak to the 
three or four questions I put forward before you?
    Secretary Creedon. Thank you. First let me take the value 
of the 61 to our NATO allies.
    I have the privilege of chairing what is referred to as the 
High Level Group, which is an interesting name, but it is a 
senior NATO group that deals with nuclear policy in the context 
of NATO, and it reports to the defense and foreign ministers 
sitting in what is referred to as the Nuclear Planning Group 
format. And it is a long-standing NATO committee, and one of 
the things that that committee looks at is nuclear policy 
within NATO, including political guidance.
    And the High-Level Group just completed, over the course of 
the last year and a half, a whole review on what exactly 
nuclear policy in NATO should be. It was initially reflected in 
the NATO Defense Posture Review, which was----
    Ms. Sanchez. So you are eating up my time here.
    Secretary Creedon [continuing]. 2012, but it said NATO will 
remain a nuclear alliance for as long as nuclear weapons exist.
    Ms. Sanchez. Are they providing money----
    Secretary Creedon. Yes, they are.
    Ms. Sanchez [continuing]. For this life extension?
    Secretary Creedon. So not----
    Ms. Sanchez. How much? What percentage?
    Secretary Creedon. So not for the life extension itself.
    Ms. Sanchez. No. Have they provided money for the----
    Secretary Creedon. It is a----
    Ms. Sanchez [continuing]. Life extension?
    Secretary Creedon. The life extension----
    Ms. Sanchez. This is what we are concerned about here.
    Secretary Creedon. The life extension, it is the life 
extension for a U.S. weapon. As a U.S. weapon, the U.S. pays 
for the life extension program.
    Ms. Sanchez. So they are not; so they are not putting their 
money where their mouth is.
    Secretary Creedon. NATO contributes and has contributed 
over 170 million euros, and NATO provides for the security. The 
host bases provide for the security, and also they also provide 
all their own aircraft. So there is a----
    Ms. Sanchez. Ms. Creedon----
    Secretary Creedon [continuing]. Substantial NATO 
contribution.
    Ms. Sanchez. Ms. Creedon, I would like to ask you another 
question since you kind of ate up my time there, and I am now a 
minute or under. Also Mr. Chairman did, or actually----
    Mr. Rogers. The gentlelady is allowed 38 seconds to make 
up----
    Ms. Sanchez. Do you know exactly how much the Department of 
Defense spends for maintaining and deploying nuclear weapons? 
Would including personnel costs in understanding which bases 
are counted provide a more accurate estimate of the full costs 
of nuclear? Can you give us a cost estimate of what it costs to 
do these things?
    Secretary Creedon. We can give you the personnel costs, we 
can give you O&M [operation and maintenance] costs. We have 
done over time various estimates as the cost for DOD of 
maintaining the nuclear weapons and delivery systems.
    Ms. Sanchez. Because I asked for this in fiscal year 2013. 
It was taken out. I have asked for it in fiscal year 2014. NDAA 
goes forward. Would you support figuring how much it is really 
costing us to do this?
    Secretary Creedon. We can provide those figures. I mean, we 
can certainly provide the figures.
    Ms. Sanchez. Perfect.
    I will end on time, because I know we have got votes on the 
floor, Mr. Chairman. Thank you. Thank you.
    Mr. Rogers. Thank you.
    The chair now recognizes the gentleman from Louisiana, Dr. 
Fleming, for 5 minutes.
    Dr. Fleming. Thank you, Mr. Chairman, and thank you, panel.
    I am going to turn the question around a little bit, and I 
will start with General Kehler, but others can answer. What if 
we de-scoped or cancelled? And I get what you say about the 
flexibility, and that makes perfect sense to me about the B61 
LEP program, but what if we didn't do that? What would be the 
result? What would we find in the following years for not 
moving forward with that?
    General Kehler. Sir, the reliability of the deterrent 
continues to decline. As you heard our colleagues from the 
Department of Energy say, these, the weapons, almost across the 
board now, are approaching 20-plus years of lifetime, some of 
them older than that. In some cases they are based on 
components and designs that are older than that. And so from my 
perspective, what we watch very carefully is the reliability 
when we do nonnuclear explosive testing on the weapons and 
component surveillance testing, the things that the labs do to 
talk to us about the weapons that provide us with an annual way 
to look at the viability of the stockpile.
    The trend is for reliability to continue to decrease unless 
we take the actions that we are laying out here in our 
strategy. So in every case here, there are components in our 
weapons that must be addressed. If we don't address those, then 
we have reliability issues. At some point in time, we will have 
to--we have weapons that what we call ``turn red.'' That is not 
a safety issue, but that is a performance issue. So we don't 
want to put the country in a place where, as long as we are 
asked to provide the nuclear deterrent, that we can't do that 
with weapons that are credible.
    Dr. Fleming. Yeah. General, would that then create a 
situation where a future President in outyears and when that 
reliability begins to decline, in a certain situation certain 
options would be taken off the table, and he or she may have 
less choices; we might even have to choose a conventional 
solution that might be inadequate simply because we don't have 
the flexibility of that upgrade and the modernization?
    General Kehler. Sir, I think that that is clearly an issue, 
and I do agree with what you just said. I think that you 
could--you could be removing options and flexibility from a 
future President.
    I also think that there is impact on our ability to deter 
those kinds of uses to begin with. The ultimate objective of 
the nuclear deterrent is to make sure that the weapons are 
never used, and yet we use them every day----
    Dr. Fleming. Yes.
    General Kehler [continuing]. To do that. It is almost 
counterintuitive, from people who aren't informed, but we use 
those weapons every single day. The credibility of our 
deterrent depends on the credibility of the weapons and the 
forces and the people that are associated.
    Dr. Fleming. Okay. Well, then, let me ask this, and, again, 
anyone on the panel is welcome to answer this question. In 
moving forward with our LEP and what we learned from doing 
that, the technology developed, how can that be expanded to 
other modernization programs or other programs in general? 
Yeah. Dr. Hommert.
    Dr. Hommert. Yeah. From the outset as we have gone into 
this LEP, we have looked at as many components that we can do 
here. The radar is an example. This radar will go into two 
additional LEPs. There are also devices that--you can think of 
them as switches, but highly specialized switches, which assure 
safety. Those that will go into the 61 will also be options for 
us in future LEPs.
    So there is a fair amount of cost buy-down implicit by 
going through the very admittedly thorough and therefore costs 
associated with qualifying these components now in the 61, but 
we expect to reap benefit from that on future extension 
programs, life extension programs.
    Dr. Fleming. Okay. Thank you.
    And, finally, how would this affect the follow-on cruise 
missile, long-range standoff missile that will replace the air-
launched cruise missile?
    Dr. Cook. I will provide a technical answer. As we are 
looking at options for the long-range standoff, as Dr. Hommert 
has just said, we have found that we would be able to apply 
considerable reuse of the nonrecurring engineering expense; in 
other words, they would be less expensive. So the things like 
arming and firing the safety switches that Dr. Hommert 
addressed, in the terms of the nonnuclear elements, a great 
deal of leverage is applied.
    Dr. Fleming. Right. Yes, go ahead, General.
    General Kehler. Sir, I would just add that today in the 
strategic force, we have two gravity weapons, the B61 and the 
B83, as Mr. Garamendi mentioned. We want to eliminate the B83. 
And we also have a cruise missile today. Our view is that for 
the future we would like to keep that mixture, a gravity weapon 
and a cruise missile, because of the military capabilities that 
they give us, and because of the problems that would present to 
any adversary.
    Dr. Fleming. Great. Thank you so much, and I yield back.
    Mr. Rogers. Thank the gentleman.
    The gentleman from Georgia, Mr. Johnson, is recognized for 
5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Cook, the fiscal year 2014 Stockpile Stewardship and 
Management Plan confidently proclaims that the 3+2 strategy is 
an executable plan; however, the report also notes that many of 
the plan's proposed life extension programs are in the early 
study phase, and the cost estimates are not complete. It also 
notes that NNSA is unlikely to be able to complete the scope of 
work it planned to complete in fiscal year 2013 due to budget 
reductions, to say nothing about future years.
    Given these and other caveats presented in the report, how 
can NNSA proclaim that 3+2 vision achievable?
    Dr. Cook. Thank you for the question. I will be direct in 
the answer.
    I have already mentioned the applicability of the B61 
component development and how that will carry across to the 
long-range standoff missile. There is similar applicability to 
the first interoperable of three that are in the 3+2 strategy. 
Decisions have been made and endorsed by the Nuclear Weapon 
Council with regard to improvements in safety and security, and 
we are on a path of technology development and component 
maturation. So the fact that we developed confidence in the 
development and can actually have metrics that tell us where we 
are, that is where part of the confidence comes from.
    I will also say, however, 2013, fiscal year 2013, is over. 
We are into fiscal year 2014. It would be wonderful to have a 
budget, it would be wonderful not to have sequestration, but we 
are where we are.
    Mr. Johnson. Well, let me ask this question, Dr. Cook: What 
is the impact on other LEPs if the B61 schedule slips?
    Dr. Cook. The short answer is if the 61 slipped, and the 
other LEPs did not slip, then the--more of the early 
development costs would be borne by the other LEPs, and so 
their cost would increase.
    Mr. Johnson. General Kehler and Ms. Creedon, are you 
concerned about potential schedule slips?
    Secretary Creedon. Absolutely. And as we have covered, the 
greatest risk to the B61-12 and, frankly, to the entire 3+2 
strategy at the moment doesn't appear to be technical risk, it 
really is budgetary risk. And it is the ongoing implications of 
sequestration.
    Mr. Johnson. General Kehler.
    General Kehler. Sir, I agree with that. Yes.
    Mr. Johnson. All right. Dr. Cook, how does NNSA plan to 
manage four to five concurrent LEPs without cost increase and 
schedule delays?
    Dr. Cook. I could give you many details, but I don't have 
the time. So first I will say these LEPs are in different 
stages, ranging from stable production where we are with the 
life-extended ballistic system for the Navy, 76-1, to very 
early considerations where we are with the long-range standoff 
option. The B61 is in between: at engineering development. So 
being very clear about the interdependencies is the first 
point.
    Secondly, we are applying the rigor of earned-value 
management systems across the board. We are using industry-
standard tools, like Primavera, and we are basically providing 
resource-loaded schedules that give us the confidence that we 
can execute these in detail.
    Mr. Johnson. All right. Dr. Cook, one last question. The 
currently proposed B61 LEP appears to be premised on a number 
of assumptions that may be outdated. For example, the program 
seems to assume that the United States would continue to 
forward-deploy tactical versions of the B61 in Europe, even 
though President Obama has stated his desire to negotiate with 
Russia to remove these weapons. In addition, the new high-level 
nuclear weapons policy guidance signed by President Obama in 
June could reduce the number of strategic gravity bombs that 
are required for deterrence.
    How might changes to the existing deterrence requirements 
alter the currently proposed scope of the B61 LEP?
    Secretary Creedon. Sorry, sir. Since that is more of a 
policy question than a technical question, if you don't mind.
    Mr. Johnson. All right.
    Secretary Creedon. So at the moment the President has been 
very clear that he would like to entertain conversations with 
Russia and with NATO allies to look at possible reductions. In 
the meantime, however, the B61 is, in fact, forward-deployed at 
NATO, and our NATO allies, as I mentioned earlier, have 
reaffirmed the need for that.
    But it is not just the ability to forward-deploy in Europe. 
I mean, when we look at the 61, it is the total package. It is 
the strategic as well as the ability to move forward not only 
in Europe, but also in the Asia-Pacific region should we need 
it.
    Mr. Rogers. Gentleman's time has expired.
    Chair now recognizes the gentleman from Florida, Mr. 
Nugent, for 5 minutes.
    Mr. Nugent. Thank you, Mr. Chairman. And I appreciate this 
panel's candor in regards to where we stand on the LEP as 
relates to B61.
    I do want to make a comment. I know where my good friend 
Mr. Garamendi was coming from, I think I do at least, trying to 
say, hey, listen, if we have something that works, why are we 
repairing something that needs to be repaired today?
    Mr. Garamendi. Very conservative thought.
    Mr. Nugent. Conservative thought. I appreciate that from 
the gentleman on the left there. But I also--it is not 
impossible.
    But I also have heard you loud and clear, particularly as 
it relates to the B61 and the flexibility that that gives you 
versus the 83, and particularly in regards to launch platform, 
and, secondly, the yield that it would do or collateral damage 
that it would do.
    So I want to make sure that I am clear, particularly from 
the forward-deployed standpoint. That is part of our posture, 
is it not, in how we are dealing with possible belligerent 
countries? Is that important to you?
    Secretary Creedon. That is correct.
    Mr. Nugent. And I would suggest that, you know, we talk 
about Europe, but we also have an issue as relates to North 
Korea that is threatening one of our allies in South Korea. So 
I think you have all answered this very clearly is that you 
feel that it is imperative that we follow the strategic advice 
of the experts in this particular issue, Dr. Cook and Dr. 
Hommert, in regards to moving forward with the transition of 
the B61; is that correct?
    Dr. Hommert. Yes. Absolutely.
    Dr. Cook. Yes.
    Mr. Nugent. And what is the negative consequence if we 
don't? What position does that put us in?
    Dr. Hommert. Well, if we don't execute the life extension 
program, then we will observe the gradual decay of reliability 
of this weapon over the next decade, and it will reach a point 
somewhere, in my view, technical judgment, in the next decade 
in which it will simply not have the sufficient reliability to 
do something that General Kehler could have confidence as part 
of his force.
    Dr. Cook. I am going to give the other perspective. If we 
do not do the 61-12 LEP, we will not be able to retire the B83, 
the last of the megaton-class weapons. We will not be able to 
reduce the number of nuclear weapons by a factor of two, nor 
will we be able to reduce both the amount of special nuclear 
material in air-delivered bombs because of the number of 
reductions in numbers and the B83, and--or the destructive 
power by 80 percent. Those are the nonproliferation, arms 
control, and very important aspects of conducting the 61 LEP. 
None of those would be achieved if we don't do the 61-12.
    General Kehler. Sir, investing in the B61 sustains a 
military capability for us that will go away if we do not.
    Secretary Creedon. And investing in the B61 also provides 
the extended deterrence to our allies around the world. And in 
the absence of that reliable extended deterrence, there is a 
real concern that some of those allies who have the ability to 
develop their own nuclear weapons would, in fact, do so.
    Mr. Nugent. I appreciate all of your comments, and I will 
yield back my time.
    Mr. Rogers. Thank the gentleman.
    The chair recognizes the gentleman, Mr. Bridenstine, for 5 
minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. I will be quick; 
I know we are voting right now.
    Just one quick question for you, General. You talked about 
the credibility of our weapons being necessary for the 
credibility of the deterrence. And, of course, we are reducing 
our--the number of our weapons, and we are reducing our hedge. 
Do you see any value in proving the credibility of our weapons 
by maybe doing an underground test of one?
    General Kehler. Sir, not at this time. We consult with the 
experts, and we are asked annually to assess for the President 
whether we think that it is necessary to conduct a nuclear 
explosive test. They do extensive testing on these weapons, not 
to include nuclear explosive testing. And at this point in time 
I don't think we gain something that I believe is militarily 
necessary by doing a nuclear explosive test.
    Mr. Bridenstine. So you are comfortable, given the data you 
are provided, that the hedge is sufficient and our bombs will 
work?
    General Kehler. Yes, sir. I am very confident of that.
    Mr. Bridenstine. Okay. Thank you. That is all I wanted to 
know. Thanks.
    Mr. Rogers. Mr. Garamendi.
    Mr. Garamendi. Dr. Cook, you made a statement, your last 
statement, and you laid out the nonproliferation scenarios. We 
don't have time now because we are going to go to vote. I would 
appreciate a detailed explanation of each one of the issues you 
raised.
    Dr. Cook. I would be happy to provide that. It is also in 
my written testimony and backed up by a number of classified 
briefings we have done.
    Mr. Garamendi. Then let us do both.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Rogers. I thank the gentleman.
    Before I go to my colleague from Arizona, General Kehler, 
do you believe the B61 nuclear bombs serve a military purpose 
in Europe?
    General Kehler. I do. Nuclear deterrence is a military 
mission, and we--what we would offer is options that--military 
options in extreme circumstances that that would be available 
for the President. I believe all of that is a military mission.
    Mr. Rogers. Great. Thank you.
    I recognize my friend and colleague from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman. And thank all of you.
    General Kehler, I also want to single you out. I consider 
you a friend and consider you a friend to human freedom. And I 
would suggest to you that, as I often have, that my 5-year-old 
twins have a better chance to walk in the light of liberty 
someday because men like you lived and wore those stars. And I 
really appreciate you very, very much.
    And with that, I am going to move on to somebody else and 
ask a question here.
    Dr. Cook, how much has been spent to date on the B61 LEP?
    Dr. Cook. Just a bit over $1.2 billion.
    Mr. Franks. And how much of that work that has been done to 
date would be scrapped in the event that we de-scoped options 
pursued for the B61?
    Dr. Cook. Most of it, but not all of it.
    Mr. Franks. And now that we are already in engineering 
development, component qualification, the LEP, would it be easy 
to de-scope the program?
    Dr. Cook. No, it would not. If we did so, it would set us 
back about 2 years, and any of the path options that we have 
identified would be more expensive than continuing with the 61-
12.
    Mr. Franks. So it wouldn't save us any money.
    Dr. Cook. It would not.
    Mr. Franks. Do any of the witnesses think it makes any 
sense to reduce the scope of this LEP?
    Secretary Creedon. No.
    Dr. Hommert. No.
    General Kehler. No.
    Mr. Franks. Mr. Chairman, I have other questions, but I am 
going to stop right there and thank the panel and thank the 
chairman for the time.
    Mr. Rogers. Thank you very much. Thank all of you very 
much. It has been very helpful. You did a great job. And we are 
now adjourned.
    [Whereupon, at 4:49 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            October 29, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 29, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6075.001
    
    [GRAPHIC] [TIFF OMITTED] T6075.002
    
    [GRAPHIC] [TIFF OMITTED] T6075.003
    
    [GRAPHIC] [TIFF OMITTED] T6075.004
    
    [GRAPHIC] [TIFF OMITTED] T6075.005
    
    [GRAPHIC] [TIFF OMITTED] T6075.007
    
    [GRAPHIC] [TIFF OMITTED] T6075.008
    
    [GRAPHIC] [TIFF OMITTED] T6075.009
    
    [GRAPHIC] [TIFF OMITTED] T6075.010
    
    [GRAPHIC] [TIFF OMITTED] T6075.011
    
    [GRAPHIC] [TIFF OMITTED] T6075.012
    
    [GRAPHIC] [TIFF OMITTED] T6075.013
    
    [GRAPHIC] [TIFF OMITTED] T6075.014
    
    [GRAPHIC] [TIFF OMITTED] T6075.015
    
    [GRAPHIC] [TIFF OMITTED] T6075.016
    
    [GRAPHIC] [TIFF OMITTED] T6075.017
    
    [GRAPHIC] [TIFF OMITTED] T6075.018
    
    [GRAPHIC] [TIFF OMITTED] T6075.019
    
    [GRAPHIC] [TIFF OMITTED] T6075.020
    
    [GRAPHIC] [TIFF OMITTED] T6075.021
    
    [GRAPHIC] [TIFF OMITTED] T6075.022
    
    [GRAPHIC] [TIFF OMITTED] T6075.023
    
    [GRAPHIC] [TIFF OMITTED] T6075.024
    
    [GRAPHIC] [TIFF OMITTED] T6075.025
    
    [GRAPHIC] [TIFF OMITTED] T6075.026
    
    [GRAPHIC] [TIFF OMITTED] T6075.027
    
    [GRAPHIC] [TIFF OMITTED] T6075.028
    
    [GRAPHIC] [TIFF OMITTED] T6075.029
    
    [GRAPHIC] [TIFF OMITTED] T6075.030
    
    [GRAPHIC] [TIFF OMITTED] T6075.031
    
    [GRAPHIC] [TIFF OMITTED] T6075.032
    
    [GRAPHIC] [TIFF OMITTED] T6075.033
    
    [GRAPHIC] [TIFF OMITTED] T6075.034
    
    [GRAPHIC] [TIFF OMITTED] T6075.035
    
    [GRAPHIC] [TIFF OMITTED] T6075.036
    
    [GRAPHIC] [TIFF OMITTED] T6075.037
    
    [GRAPHIC] [TIFF OMITTED] T6075.038
    
    [GRAPHIC] [TIFF OMITTED] T6075.039
    
    [GRAPHIC] [TIFF OMITTED] T6075.040
    
    [GRAPHIC] [TIFF OMITTED] T6075.041
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            October 29, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6075.042
    
    [GRAPHIC] [TIFF OMITTED] T6075.043
    
    [GRAPHIC] [TIFF OMITTED] T6075.440
    
    [GRAPHIC] [TIFF OMITTED] T6075.450
    
    [GRAPHIC] [TIFF OMITTED] T6075.046
    
    [GRAPHIC] [TIFF OMITTED] T6075.047
    
    [GRAPHIC] [TIFF OMITTED] T6075.048
    
    [GRAPHIC] [TIFF OMITTED] T6075.049
    
    [GRAPHIC] [TIFF OMITTED] T6075.050
    
    [GRAPHIC] [TIFF OMITTED] T6075.510
    
    [GRAPHIC] [TIFF OMITTED] T6075.512
    
    [GRAPHIC] [TIFF OMITTED] T6075.052
    
    [GRAPHIC] [TIFF OMITTED] T6075.053
    
    [GRAPHIC] [TIFF OMITTED] T6075.054
    
    [GRAPHIC] [TIFF OMITTED] T6075.055
    
    [GRAPHIC] [TIFF OMITTED] T6075.056
    
    [GRAPHIC] [TIFF OMITTED] T6075.057
    
    [GRAPHIC] [TIFF OMITTED] T6075.058
    
    [GRAPHIC] [TIFF OMITTED] T6075.059
    
    [GRAPHIC] [TIFF OMITTED] T6075.060
    
    [GRAPHIC] [TIFF OMITTED] T6075.061
    
    [GRAPHIC] [TIFF OMITTED] T6075.062
    
    [GRAPHIC] [TIFF OMITTED] T6075.063
    
    [GRAPHIC] [TIFF OMITTED] T6075.064
    
    [GRAPHIC] [TIFF OMITTED] T6075.065
    
    [GRAPHIC] [TIFF OMITTED] T6075.066
    
    [GRAPHIC] [TIFF OMITTED] T6075.067
    
    [GRAPHIC] [TIFF OMITTED] T6075.068
    
    [GRAPHIC] [TIFF OMITTED] T6075.069
    
    [GRAPHIC] [TIFF OMITTED] T6075.070
    
    [GRAPHIC] [TIFF OMITTED] T6075.071
    
    [GRAPHIC] [TIFF OMITTED] T6075.072
    
    [GRAPHIC] [TIFF OMITTED] T6075.073
    
    [GRAPHIC] [TIFF OMITTED] T6075.074
    
    [GRAPHIC] [TIFF OMITTED] T6075.075
    
    [GRAPHIC] [TIFF OMITTED] T6075.076
    
    [GRAPHIC] [TIFF OMITTED] T6075.077
    
    [GRAPHIC] [TIFF OMITTED] T6075.078
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 29, 2013

=======================================================================

      
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI

    General Kehler. That is mainly correct. As it stands today, the B83 
is not compatible with the F-35 or any other dual-capable fighter 
aircraft. The F-35 is being fielded as a survivable platform with a 
modern, digital-only weapon control system. To make the B83 work on the 
F-35 would require significant and extensive modifications to the 
weapon, the supporting infrastructure and perhaps the platform itself, 
all at a much higher cost than the planned B61 program. For example, 
the B83 would require a complete replacement of its outdated analog 
technology as well as an overhaul of its security features. Such a full 
scope, nuclear and non-nuclear re-design would require extensive 
testing and certification before deploying on the F-35. Finally, all 
overseas storage vaults and maintenance equipment would need 
modification to support the B83.   [See page 14.]
    General Kehler. The B83 can be delivered by the B-2 and B-52. It is 
not certified for delivery on any other current aircraft.   [See page 
15.]
    Dr. Cook. The B61-12 LEP with guided tail kit assembly will replace 
four of the five current variants of the B61, resulting in a single 
variant after the B61-11 is retired. U.S. Strategic Command determined 
that with the accuracy provided by a tail kit, the yield provided by 
today's lowest yield B61 variant would be sufficient to meet all of the 
strategic and non-strategic requirements for gravity systems. Having a 
single variant will enable a reduction in the number of deployed and 
non-deployed air-delivered nuclear gravity weapons in the stockpile, 
while increasing the safety and security of this aging system. 
Additionally, by balancing reduced yield with improved accuracy, this 
LEP would allow us to pursue retirement of the B61-11, and the B83 
gravity bomb, once confidence in the B61-12 stockpile is gained; as 
provided in the FY 2014 NNSA Stockpile Stewardship and Management Plan. 
All of these aspects above allow the majority of the air delivered 
gravity weapons to be removed from the U.S. nuclear stockpile (active 
and inactive), a very large reduction in the total amount of nuclear 
material utilized by air delivered gravity weapons in the U.S. nuclear 
stockpile, and a significant reduction in the total nuclear yield 
(i.e., mega-tonnage) produced by air-delivered gravity weapons in the 
U.S. nuclear stockpile. Additionally, information can be provided in a 
classified forum upon request.   [See page 25.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 29, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Secretary Creedon, you are the U.S. representative to 
NATO's High Level Group, which discusses nuclear weapons aspects of 
NATO defense posture. What are the consequences to NATO and our 
relationship with our NATO allies if we fail to deliver on the B61 Life 
Extension Program (LEP)?
    a. We've heard some people say that NATO should pay for part of the 
B61 LEP. Does the Administration think it is appropriate for a foreign 
country to pay for sustainment of U.S. nuclear weapons? Would that 
violate any treaties? Does it violate common sense?
    b. Do you anticipate NATO changing its policy on nuclear weapons 
any time soon?
    Secretary Creedon. a. NATO contributes to the Alliance's nuclear 
posture in two ways. First, through the NATO Security Investment 
Program, NATO allies provide funding for security and infrastructure 
enhancements and upgrades at European nuclear weapons storage sites. 
Second, NATO allies burden-share in the nuclear mission by assigning 
pilots and dual-capable aircraft to the mission, and by supporting the 
nuclear mission with conventional operations (such as the SNOWCAT 
program--``Support of Nuclear Operations with Conventional Air 
Tactics''). I do not think it is appropriate for a foreign country to 
pay for sustainment of U.S. nuclear weapons because it would subject 
classified U.S. nuclear data to be disclosed to foreign nations and 
will open contributing nations to charges of proliferation. Moreover, 
these are U.S. weapons and the U.S. must remain responsible for their 
sustainment.
    b. The 2012 Deterrence and Defense Posture Review concluded that 
nuclear weapons are a core component of NATO's overall capabilities for 
deterrence and defense, alongside conventional and missile defense 
forces; and that the Alliance's nuclear force posture currently meets 
the criteria for an effective deterrence and defense posture. Moreover, 
the DDPR states that, as long as nuclear weapons exist, NATO will 
remain a nuclear Alliance. Since the security environment since 2012 
has not changed appreciably, I do not anticipate NATO changing its 
policy on nuclear weapons in the foreseeable future.
    Mr. Rogers. What is our non-NATO allies' interest in the B61 LEP?
    a. What do you foresee as potential impacts on some of our Asian 
allies, in particular Japan and South Korea, if we fail to execute the 
LEP?
    b. Wouldn't we be endangering the credibility of our extended 
deterrent if the B61 LEP isn't funded?
    Secretary Creedon. The B61 plays a critical role in the U.S. 
nuclear posture in East Asia because it serves both as an assurance and 
deterrence function for Japan and South Korea. The B61 assures our 
allies by providing them with a tangible demonstration of the 
seriousness of the U.S. extended deterrence commitment.
    Mr. Rogers. Do you believe our extended deterrent assurances to 
allies lose credibility if we continue to slip deadlines for 
modernizing our stockpile?
    Secretary Creedon. In the 2010 Nuclear Posture Review report, the 
Administration stated that it was committed to the full scope life 
extension of the B61. Both the Administration's 2013 nuclear employment 
guidance and the North Atlantic Treaty Organization's 2012 Deterrence 
and Defense Posture Review rely, in part, on this commitment. The U.S. 
nuclear employment guidance states that the United States will maintain 
the capability to forward-deploy non-strategic nuclear weapons (i.e., 
the B61) with heavy bombers and dual-capable aircraft in support of 
extended deterrence and assurance of U.S. allies and partners. 
Similarly, as the only U.S. nuclear weapon assigned to NATO, the B61 
supports the Alliance's commitment in the DDPR that NATO will remain a 
nuclear alliance for as long as nuclear weapons exist and to maintain 
the current nuclear posture. Based on these commitments, it is critical 
that the United States complete the B61 LEP as scheduled.
    Mr. Rogers. If we decided tomorrow to withdraw all B61s forward-
deployed in support of NATO, would we still need to execute the B61 
LEP?
    a. Is the need for the B61 LEP driven by our NATO Alliance 
commitments, or by our own nuclear deterrent needs?
    Secretary Creedon. Both the 2010 Nuclear Posture Review and the 
June 2013 U.S. nuclear employment guidance state that the United States 
will maintain a nuclear Triad consisting of intercontinental ballistic 
missiles, submarine-launched ballistic missiles, and nuclear capable 
bombers--including heavy bombers and dual-capable aircraft. Further, 
this guidance states that the United States will retain the capability 
to forward deploy non-strategic nuclear weapons (NSNW), like the B61. 
Additionally, as a result of the retirement of the B83, the B61 will be 
the only gravity weapon to support the B-2 mission. Retaining all three 
legs of the Triad best maintains strategic stability at reasonable cost 
while hedging against potential technical problems or vulnerabilities. 
To maintain an effective and credible Triad--which includes the ability 
to forward deploy NSNW--the B61 LEP is necessary whether or not it 
remains a component of NATO's deterrence and defense posture.
    Finally, benefits of the B61-12 LEP are not limited to commitments 
to NATO. The technical work performed for this LEP will be leveraged 
for future LEPs, providing potential cost savings to other programs.
    Mr. Rogers. We have heard from various disarmament advocates that 
the B61 LEP is premised on a number of assumptions that may be 
outdated. This includes an assumption that the U.S. will continue to 
forward-deploy B61s in Europe, even though President Obama has stated 
his desire to negotiate with Russia to remove these weapons. Also, 
President Obama has said he believes we can reduce the number of 
nuclear weapons further, so maybe we just don't need the B61 going 
forward. So, do you think deterrence requirements are changing, and 
therefore we should reexamine the scope of the B61 LEP or its existence 
altogether?
    Secretary Creedon. The role of U.S. non-strategic nuclear weapons 
(NSNW) in Europe was recently re-evaluated by the NATO Alliance in May 
2012 as part Deterrence and Defence Posture Review (DDPR). As part of 
the DDPR all NATO members agreed that ``Nuclear weapons are a core 
component of NATO's overall capabilities for deterrence and defence 
alongside conventional and missile defence forces''; that ``As long as 
nuclear weapons exist, NATO will remain a nuclear alliance''; and 
``While seeking to create the conditions and considering options for 
further reductions of non-strategic nuclear weapons assigned to NATO, 
Allies concerned will ensure that all components of NATO's nuclear 
deterrent remain safe, secure, and effective for as long as NATO 
remains a nuclear alliance.''
    The President has stated his desire to further reduce the amount 
and role of nuclear weapons and the B61-12 LEP is an important step 
towards achieving those objectives. Once the B61-12 LEP program is 
completed and confidence in its capabilities are established the U.S. 
will be able to reduce the number of nuclear gravity bombs by over 50 
percent and the amount of nuclear material utilized in those gravity 
bombs by over 80 percent. The B61-12 LEP is a key component of the 
Administration's requirement that the U.S. retain the capability to 
forward deploy nuclear weapons on tactical fighters and heavy bombers, 
most recently expressed in the revised nuclear employment guidance in 
June 2013 and also in the Nuclear Posture Review in 2010.
    Mr. Rogers. a. NNSA's final cost estimate for the B61-12 LEP came 
in at around $8 billion. I understand that DOD's CAPE office has put 
forward an estimate of over $10 billion. Please describe the level of 
rigor and effort that went into developing this estimate.
    Dr. Cook. a. NNSA used a high level of rigor and effort to develop 
the B61-12 cost estimate. The current cost estimate for the B61-12 life 
extension program (LEP) reported in the September 2013 Selected 
Acquisition Report to Congress is $8.1B which includes $7.3B in direct 
B61-12 funding and another $0.8B in other NNSA funds. The estimate is 
based on the Weapon Design and Cost Report (WDCR) published in July 
2012 and has not changed with the exception of the impacts due to the 
FY 2013 sequestration cuts.\1\ NNSA submits quarterly updates to 
Congress on cost and schedule and will formally update the cost 
estimate following the Baseline Design Review to establish an 
Acquisition Program Baseline in FY 2016. The WDCR cost estimate is the 
initial cost estimate for the weapon program. NNSA used a bottom-up 
cost estimating approach involving more than 40 product realization 
teams with representatives from each of the NNSA design and production 
agencies. The WDCR cost estimate followed the GAO cost estimating 
guidance using three-point estimates, risk based contingency analysis, 
and included management reserve. Component level costs are directly 
linked to the life extension option and comprise both direct costs 
associated with design, development, procurement, and testing as well 
as system level integration and testing costs. The estimate was 
internally, but independently, reviewed and represents a formal 
commitment by each site on expected costs for the weapon program. The 
estimate will be updated in the Baseline Cost Report following 
completion of the Baseline Design Review and prior to entry into Phase 
6.4 in FY 2016.
---------------------------------------------------------------------------
    \1\ As a result of sequestration, NNSA slipped the First Production 
Unit (FPU) from September 2019 to March 2020 and added $244M to the 
management reserve to offset the potential increased costs and 
associated risks with delaying the program by six months. The first 
B61-12 Selected Acquisition Report to Congress, which formally 
documents weapon program cost and schedule, included the sequestration 
impacts.
---------------------------------------------------------------------------
    Mr. Rogers. b. Would you please describe how CAPE arrived at this 
number?
    Dr. Cook. b. The DOD CAPE developed their cost estimate 
independently. NNSA must defer to the DOD to answer questions on the 
process they used. One major difference between the CAPE estimate and 
that provided by the NNSA WDCR was an extended schedule. CAPE assumed 
an additional three years of development work.
    Mr. Rogers. c. What is your professional opinion of this number by 
CAPE?
    Dr. Cook. c. CAPE developed their cost estimate independently. 
Therefore, NNSA cannot offer an opinion.
    Mr. Rogers. d. Which number do you stand by?
    Dr. Cook. d. The NNSA stands by the $8.1 billion cost estimate 
published in the September 2013 Selected Acquisition Report.
    Mr. Rogers. a. What are the impacts to the B61 LEP if sequestration 
is allowed to continue for the duration of FY14?
    Dr. Cook. a. The impact of additional sequestration cuts to the 
program schedule is being assessed but is expected to be less than 3 
months to the March 2020 first production unit (FPU). If funding for 
the B61-12 and related activities is restored to the President's Budget 
Request (PBR) level, the LEP would be able to maintain its current 
March 2020 FPU commitment reported in the September 2013 Selected 
Acquisition Report (SAR). Funding at the $537M PBR level versus the 
$561M B61-12 SAR estimated requirement will increase risk to the FPU as 
less funds will be available for risk mitigation. In addition, funding 
for NNSA infrastructure investments is also limited. This could cause 
system- or facility-level failures in the nuclear security enterprise 
that would preclude safe and secure operations, causing unplanned 
delays in the B61 LEP and other programs.
    Mr. Rogers. b. If a continuing resolution is passed for much of 
FY14, what are the effects if the B61 LEP does not receive an 
``anomaly'' that enables it to spend at the level of the President's 
budget request?
    Dr. Cook. b. Under the current CR, the B61-12 is being held to 
$369M as opposed to the PBR of $537M or the Selected Acquisition Report 
estimated requirement of $561M. If the program is held at the $369M 
level through FY 2014, it would significantly impact NNSA's ability to 
meet the B61-12 LEP FPU date. The reduced funding would require a 
reduction in the current B61-12 technical staff levels, elimination of 
development hardware procurements, and cancellation of joint test 
activities with the USAF. The lack of new hardware also impacts 
component development activities and testing for FY 2015. The FPU in 
March 2020 could not be achieved and could possibly slip into FY 2021.
    Mr. Rogers. As the principal design agent for this LEP, Sandia did 
the bulk of the work that led to the final cost estimate of around $8 
billion. Please describe the level of rigor and effort that went into 
developing this estimate. I understand that DOD's CAPE office has put 
forward an estimate of over $10 billion. Would you please describe how 
CAPE arrived at this number? What is your professional opinion of this 
number by CAPE? Which number do you stand by?
    Dr. Hommert. When NNSA provided to Congress the B61-12 Weapon 
Design and Cost Report (WDCR), the overall estimate of approximately $8 
billion over 12 years for the full program included the production and 
deployment of the required number of nuclear bombs. Within that cost 
estimate, Sandia's portion is $2.65 (note, this is the design agency 
cost) billion estimated total incremental cost for work on the B61 LEP 
specified in the WDCR.
    The rigor of this estimate met my expectation for capturing the 
uncertainty and risks associated with a program in the conceptual 
design phase. This estimated cost includes an appropriate amount of 
risk informed contingency. Sandia's estimate includes a task based 
estimate of cost for each major component and sub-systems in the life 
extension program and was developed by our nuclear weapons experts. A 
high level of confidence in the cost estimate was achieved through 
close coordination with both NNSA and DOD staff, resulting in a mature 
understanding of negotiated threshold and programmatic requirements. We 
also complied with NNSA direction to utilize the Government 
Accountability Office standards for cost estimating. Sandia conducted 
internal management and independent reviews of our estimate before 
forwarding it to NNSA. Our review process also included external 
experts who concluded that SNL's estimate met the NNSA-directed WDCR 
criterion that the estimate be accurate, repeatable, auditable, and 
defensible.
    CAPE completed a program risk assessment of the entire NNSA B61-12 
WDCR rather than a detailed independent cost estimate. CAPE's review 
was requested by NNSA. The WDCR is the only definitive cost estimate. 
The primary driver for the differential in CAPE's assessment was 
reducing Sandia's schedule overlap for the B61-12 which meets the 
Nuclear Weapon Council's requirement to complete weapon first 
production in fiscal year 2019. CAPE also used a different cost 
assumption for its labor rates for its assessment instead of utilizing 
the NNSA labor rates in the WDCR.
    With respect to technical risk, I have the highest level of 
confidence that technical issues will NOT cause impact to Sandia's 
schedule performance, as we demonstrated through progress in FY13. I 
say this for two reasons. First, we do not view this program as 
inherently high technical risk, especially when compared with other 
product development programs conducted at Sandia. Second, we manage our 
contingency funds (10%) in a manner that continuously buys down risk 
against a formalized risk register. Our FY13 and FY14 labor rates were 
at or below the labor rates included in the WDCR.
    With respect to budgetary changes, FY13 sequestration impacts 
caused some technical activities to be moved into FY14. We estimated 
the schedule impact of those shifts to be relatively small--on the 
order of 2 to 3 months over the life of the program (within overall 
schedule contingency). However, at the time of this testimony, we are 
operating against a FY14 resource allocation that, on an annual basis, 
is at least 23% below the FY14 requirement, as contained in the most 
recent NNSA-approved Baseline Change Requests to the Selected 
Acquisition Report, approved in October 2013. Obviously, unless 
addressed, budgetary changes of this magnitude will have significant 
schedule impact. As with any large program activity, schedule slip will 
result in an increase in overall program cost.
    As noted, CAPE completed a risk assessment of the entire NNSA B61-
12 estimate rather than a detailed independent cost estimate. The CAPE 
team, working collaboratively with NNSA and Sandia, acted within the 
severe time constraints assigned to it by the Nuclear Weapons Council 
to complete the risk assessment and the unique characteristics of a 
nuclear weapon program which operates differently than conventional 
Defense Department acquisition process. Sandia benefited from the CAPE 
engagement and their review. We share their goal of wisely and 
appropriately managing the program to the WDCR estimate to meet the 
schedule and expected labor rates. The major drivers leading to a 
significant difference in the CAPE prediction from the SNL estimate are 
consistent as previously explained. If these drivers are experienced, 
cost will increase.
    Sandia National Laboratories made a commitment to deliver the B61-
12 to the estimate provided to NNSA as our portion of the Weapon Design 
and Cost Report (WDCR) which included contingency funding, and 
leveraging other NNSA programs The Laboratories continue to stand by 
that estimate. Assuming all the WDCR obligations are met, including 
contingency and NNSA programs supporting the B61-12, I expect to 
continue to meet the commitments. At the time of my testimony, we had 
costed $253 million of the $2.65 billion. Against those expenditures, 
we have met all major milestones on (or under) cost. These milestones 
include system-level mechanical environment tests, radar flight 
performance tests, and functional electrical compatibility tests.

                                 ______
                                 

                   QUESTIONS SUBMITTED BY MR. COOPER

    Mr. Cooper. Are there expected cost-savings from doing the B61-12?
    Secretary Creedon. Yes. The B61-12 will become the only gravity-
dropped nuclear weapon in the U.S. nuclear stockpile. It will fulfill 
both the strategic and non-strategic requirements of the airborne 
component of the U.S. nuclear Triad. It will allow the retirement or 
consolidation of six different types of nuclear gravity weapons that 
are currently maintained in the U.S. nuclear stockpile significantly 
reducing the costs associated with stockpile, surveillance and testing, 
and eliminating the need to perform additional, costly life-extension 
programs (LEP) for these weapons that would otherwise be required 
within the next decade. Without the B61-12 LEP these cost savings 
cannot be realized.
    Mr. Cooper. What drives the requirement of approximately 500 B61s? 
What dries the requirement for the number of forward-deployed B61s? Has 
the Administration considered performing a LEP on a lower number of 
B61s?
    Secretary Creedon. The requirements for the numbers and types of 
weapons in the stockpile come from the recommendations of Commander, 
U.S. Strategic Command, and the Chairman of the Joint Chiefs of Staff. 
Their recommendations reflect the amount and types of weapons needed to 
defend our nation and our Allies, and to deter other nations that might 
use or threaten to use nuclear weapons against the United States or our 
Allies. Roughly 80 percent of the cost of the B61-12 LEP is needed to 
produce the first weapon and the remaining 20 percent of the costs are 
associated with the follow-on weapons produced. As such, any reduction 
in the number of B61-12s produced would result in very little cost 
savings. The current number of B61-12s planned still allows for a more 
than 50 percent reduction in the total number of nuclear gravity bombs 
in the U.S. nuclear stockpile and a more than 80 percent reduction in 
the total amount of nuclear material contained within those remaining 
bombs.
    Mr. Cooper. Are you confident that NNSA can manage a workload which 
includes 4-5 concurrent life extension programs?
    Secretary Creedon. We are confident that NNSA can manage the 
current scope of work required to meet long-term requirements. 
Concurrency of work remains a concern, and therefore our plan is 
structured not to exceed the capacity of NNSA facilities by sequencing 
programs and by utilizing reuse of components where possible to 
minimize both costs and infrastructure utilization.
    Mr. Cooper. The administration has pledged that it would not 
develop new capabilities. Specifically on the B61, the lower yield is 
being compensated by higher accuracy provided by a new tailkit. 
However, if you now have approximately 500 B61-12s which could 
theoretically all be used as strategic assets, would this provide new 
capability?
    Secretary Creedon. The B61-12 tail-kit assembly (TKA) does not 
provide a new capability to the weapon. The TKA simply improves the 
reliability of the bomb. This improved reliability permits us to 
utilize a design with a lower maximum yield, one that is already in the 
active stockpile, to address both strategic and non-strategic targets.
    Mr. Cooper. What is status on the plans for the three interoperable 
warheads?
    Secretary Creedon. The interoperable warheads are still an 
essential element of the long-term modernization strategy for the 
nuclear deterrent. Current fiscal constraints are causing us to 
consider delaying the development of the first interoperable warhead. 
Even though there may be a delay in obtaining these warheads, the plan 
is still to pursue an interoperable warhead capability.
    Mr. Cooper. Is there a risk that new interoperable warheads planned 
under the 3+2 plan will increase the likelihood that the United States 
might need to return to testing? What is the risk of having 3 new (and 
unproven) interoperable warheads account for most of the U.S. 
stockpile?
    Secretary Creedon. We have a suite of computational and 
experimental tools that we currently use to certify the stockpile, and 
those tools would be used to certify the interoperable designs. We see 
no increased risk in the interoperable designs because we plan to reuse 
current design and underground-tested assets.
    Mr. Cooper. Could the Long-Range Stand Off (LRSO) cruise missile 
and warhead be carried on the F-35?
    Secretary Creedon. We conducted an abbreviated review of this 
option and determined that it is both technically infeasible and 
impractical. We could physically attach the missile with the warhead 
onto the F-35 aircraft if we made a shorter version of the missile. The 
missile would have to be carried externally and would cause the F-35 to 
lose all stealth capability, greatly diminishing aircraft survivability 
and the probability of successful weapon delivery.
    Using LRSO in place of a B61-12 would create significant treaty 
compliance, Alliance, and infrastructure issues.
    Mr. Cooper. Are there expected cost-savings from doing the B61-12? 
[Question #16, for cross-reference.]
    Dr. Cook. The cost of the B61-12 LEP versus an alternative strategy 
that maintains the current family of B61s and the B83 is estimated to 
be approximately half the cost in both the 25-year planning window as 
well as the 50-year planning window. The alternative strategy requires 
NNSA to maintain the current B61 Mod configurations and the B83-1 bombs 
to meet military requirements for U.S. strategic and extended nuclear 
deterrence missions. The cost for the alternative strategy includes two 
B61 alterations, a B83 alteration, and full LEPs for both bombs to 
ensure capability over the two planning windows assessed. There are 
additional benefits beyond cost savings enabled by the B61-12 LEP 
including:
    <bullet>  The majority of the air delivered gravity weapons will be 
removed from the U.S. nuclear stockpile (active and inactive).
    <bullet>  A very large reduction in the total amount of nuclear 
material utilized by air delivered gravity weapons in the U.S. nuclear 
stockpile.
    <bullet>  Significant reduction in the total nuclear yield (i.e., 
mega-tonnage) produced by air-delivered gravity weapons in the U.S. 
nuclear stockpile.
    These planned reductions in the numbers of weapons, amounts of 
nuclear material, and total yield are dependent upon the successful 
completion of the B61-12 LEP. They are a key part of the 
Administration's long-term plan to demonstrate that we are making 
progress on our Non-Proliferation Treaty Article VI obligations.
    Mr. Cooper. What is the updated cost difference between the B61 
option 1E and B61 option 3B? [Question #17, for cross-reference.]
    Dr. Cook. Switching to the B61 1E today is not a lower cost option. 
Because the B61-12 is in the second year of engineering development 
using the current requirements, making a dramatic change now would 
require major component redesign and a restart of most systems 
engineering. This would delay the program for 1 to 2 years. Further, 
NNSA's Defense Programs, Office of Program Integration completed a B61 
Alternatives Analysis in FY 2013. The analysis considered the current 
mod consolidation strategy versus an alternative that would maintain 
the current family of B61s and the B83 without the B61-12 LEP. While 
the analysis did not specifically call out option 1E, sufficient 
similarities exist to make this comparison applicable. The analysis 
compares the costs to maintain the B61-12 versus the existing gravity 
bombs stockpile (B61 family and B83) over 25-year and 50-year planning 
windows. For the B61-12 LEP the analysis assumed a 20 year stockpile 
life and a second LEP is required in the 50 year planning window. For 
the existing bombs stockpile the analysis assumed non-nuclear 
alterations on the B61-3, B61-4, B61-7 and B83-1 would be performed 
prior to 2030 and full LEPs on both bomb families before 2040. This 
analysis demonstrated that the costs of the B61-12 LEP approach are 
approximately half as much as maintaining the existing bombs stockpile. 
The B61-12 LEP, as currently authorized by the Nuclear Weapons Council 
and requested in the Administration's FY 2014 budget request, is the 
lowest cost option that meets military requirements. Any other 
alternative would not meet military requirements and would drive-up 
lifecycle costs for these modernization activities, which are necessary 
to realize the President's nuclear security vision.
    Mr. Cooper. a. How did the government shutdown affect the schedule 
of the B61 Life Extension Program?
    Dr. Cook. a. A combination of the government shutdown and the CR 
funding level is expected to result in a 3-month slip to the Baseline 
Design Review from FY 2015 to FY 2016. Further delays were mitigated 
through the use of carry-over funding. If funding is restored to the 
PBR level of $537M by January, the program would be able to maintain 
its current March 2020 FPU but at increased risk because funding is 
below B61-12 SAR estimated requirement of $561M. The reduced funding 
will result in less-than-planned program contingency to reduce risk. In 
addition, funding for NNSA infrastructure investments is also limited. 
This could cause system- or facility-level failures in the nuclear 
security enterprise that would preclude safe and secure operations, 
causing unplanned delays in the B61 LEP and other programs.
    Mr. Cooper. b. Are any additional costs expected because of the 
shutdown?
    Dr. Cook. b. While the CR funding level of $369M will have an 
impact as noted above, there are no additional costs attributed 
specifically to the shutdown.
    Mr. Cooper. c. And what will the impacts be if sequester remains in 
FY14?
    Dr. Cook. c. The impacts of additional sequestration cuts to the 
program is being assessed but is expected to be less than 3 months to 
the March 2020 FPU.
    Mr. Cooper. What is the NNSA's current estimated total cost for the 
B61 Life Extension Program?
    Dr. Cook. The current cost estimate for the B61-12 life extension 
program reported in the September 2013 Selected Acquisition Report to 
Congress is $8.1B, which includes $7.3B in direct B61-12 funding and 
another $0.8B in other NNSA funds. This estimate is based on the 
Weapons Design and Cost Report published in July 2012 and has not 
changed with the exception of the impacts due to FY 2013 sequestration 
cuts.
    Mr. Cooper. a. Since NNSA B61 costs rose from $7.9 billion to $8.1 
billion due to sequestration impacts, can we expect a similar cost 
increase (and further delay occur) if sequestration continues into 
FY14?
    Dr. Cook. a. If sequestrations cuts extend the program, there will 
be an increase in the estimated total program cost. Current analysis 
indicates if the B61-12 receives funding at the President's Budget 
Request (PBR) versus the B61-12 Selected Acquisition Report (SAR) 
estimated requirement of $561M, the program would be able to maintain 
its current March 2020 first production unit, albeit at a higher risk. 
Funding below the request due to sequestration may result in an 
additional 1-3 month delay. Schedule assessment is underway along with 
the re-planning effort resulting for the 3 month CR at $369M. The 
analysis is also assessing how other programs that support the B61 12, 
such as the science and engineering campaigns, would also be affected 
by FY 2014 sequestration.
    Mr. Cooper. b. Assuming no sequestration in FY14 and full funding, 
can you guarantee that the B61-12 will be delivered by FY 2020 for 
under $8.1 billion?
    Dr. Cook. b. NNSA is confident we can meet a 2020 first production 
unit if the program is fully funded as defined in the B61-12 Selected 
Acquisition Report (SAR) in FY 2014 and subsequent years. NNSA has high 
confidence in the cost estimate developed in the B61-12 Weapons Design 
and Cost Report and reported in the B61-12 SAR. Our initial cost 
estimate was developed using sound principals, reasonable assumptions, 
and was independently verified. However, it is an initial estimate that 
NNSA will update in FY 2016 as part of the Baseline Cost Report prior 
to authorizing Phase 6.4 when the LEP design is approximately 90% 
complete and the program is beginning final design, pre-production, and 
system qualification activities. The estimate in the Baseline Cost 
Report will be the Acquisition Program Baseline. Currently the program 
is on schedule with the greatest risk being funding uncertainty and not 
technical challenges. This response also assumes that limited 
infrastructure funding does not result in any operational impacts due 
to safety or security concerns.
    Mr. Cooper. c. What is the risk of delay or cost increase if NNSA 
does not receive full funding for the B61 not only in FY14 but in the 
next five years?
    Dr. Cook. c. The risk of sequestration cuts over the next five 
years is unplanned cost growth by extending the development and 
production periods. This will also complicate maintaining schedule 
alignment with the USAF, potentially driving additional DOD costs as 
well. In Fiscal Year (FY) 2013 the impacts of sequestration reduced 
NNSA's total resources by 7.8 percent and stressed the nuclear 
enterprise's ability to support the long-term aspects of the ``3+2'' 
modernization strategy in order to try to protect its near-term 
commitments like the W76 LEP. Sequestration has already resulted in a 
roughly six-month delay to the first production unit of the B61-12 from 
2019 to 2020. Without a solution to the current fiscal crisis in FY 
2014 the DOD and DOE will be forced to make even more difficult 
decisions that could reduce the long term financial benefits of the 
``3+2'' strategy. In addition, funding for NNSA infrastructure 
investments is also limited. This could cause system- or facility-level 
failures in the nuclear security enterprise that would preclude safe 
and secure operations, causing unplanned delays in the B61 LEP and 
other   [Editor note: answer as sent was incomplete.]
    Mr. Cooper. How does the cost per unit for the B61-LEP compare with 
previous LEP costs?
    Dr. Cook. Cost per unit is dependent on the total production 
quantity, which is classified and available in the classified addenda 
of the B61-12 and W76-1 Selected Acquisition Reports. These unit costs 
are consistent between the programs in terms of the relative complexity 
and total production quantities.
    Mr. Cooper. Do you agree with CAPE's conclusions that cost will 
reach $10.1 billion and schedule could slip to FY22?
    Dr. Cook. I am confident that B61-12 FPU can be achieved by FY 2020 
provided the program is fully funded at the SAR estimated requirement 
of $8.1B. Today, the greatest risk to holding schedule is annual budget 
uncertainty rather than technical risk. Our estimate for the program is 
$7.3B in direct B61-12 funding with an additional $0.8B leveraged from 
other NNSA science and engineering campaigns. This cost estimate has 
not changed, with the exception of sequestration impacts, from the 
original cost estimate in the B61-12 Weapon Design Cost Report 
published on July 25, 2012.
    Mr. Cooper. What is status on the plans for the three interoperable 
warheads?
    Dr. Cook. In November 2012, the Nuclear Weapons Council selected a 
baseline stockpile life extension plan that implements the ``3+2'' 
vision in which three interoperable warheads for ballistic missiles is 
an integral part. The baseline plan was detailed in a Nuclear Weapons 
Council memorandum dated January 15, 2013. The Nuclear Weapons Council 
plan establishes the framework to develop more detailed implementation 
plans for deployment of interoperable warheads. Over the coming months, 
NNSA and the Department of Defense will work together to continue to 
analyze cost, scope, schedule and other implications of this vision as 
means to inform future decisions regarding the nuclear weapons 
enterprise.
    Mr. Cooper. The FY 2014 Stockpile Stewardship and Management Plan 
states that the ``3+2'' strategy is ``an executable plan.'' However, 
given the costs of the interoperable warheads and budget constraints 
does NNSA still believe the ``3+2'' vision is still achievable?
    Dr. Cook. Yes, we believe the vision is achievable, but it may 
require some modification and/or delay. NNSA is working with the 
Department of Defense, through the Nuclear Weapons Council, to analyze 
cost, scope, schedule and other implications of the current baseline 
plan as means to inform future decisions regarding the nuclear weapons 
enterprise. Among the factors the two departments are analyzing are 
affordability, feasibility, and synchronization with delivery platform 
modernization plans.
    Mr. Cooper. a. Is there a risk that new interoperable warheads 
planned under the 3+2 plan will increase the likelihood that the United 
States might need to return to testing?
    Dr. Cook. a. No. LEPs developed to enable interoperable warheads 
will not result in an increased likelihood of an underground test. On 
the contrary, all LEPs (past and future) are intended to reduce the 
likelihood of a need for a return to testing. By eliminating effects of 
aging and increasing performance margins, LEPs result in a stockpile 
that will continue to be safe, secure, and reliable without a need to 
return to testing. In particular, all of the design and manufacturing 
changes proposed for the W78/88-1 LEP are subject to intense peer 
review and evaluation by all three labs. The use of modern stockpile 
stewardship tools allows all LEP changes to be thoroughly vetted and 
understood through modeling and experiments without a need for nuclear 
explosive testing.
    Mr. Cooper. b. What is the risk of having 3 new (and unproven) 
interoperable warheads account for most of the U.S. stockpile?
    Dr. Cook. b. Certification of interoperable warheads will be based 
on simulations, experiments tied to previous underground tests (UGTs), 
and expert judgment. Improvements in simulations and experiments 
provide confidence that there will not be a need to return to UGTs.
    Mr. Cooper. Do you agree with CAPE's conclusions that cost will 
reach $10.1 billion and schedule could slip to FY22?
    Dr. Hommert. There has been considerable discussion about schedule 
slip or cost growth on the B61 LEP. With respect to this topic, I can 
only address Sandia's role; however, as the predominant design agent 
for the LEP, we recognize the impact of our work on the overall 
enterprise schedule.
    Regarding schedule, there are two overarching causes for slip: 
technical issues and budgetary changes. With respect to technical risk, 
I have the highest level of confidence that technical issues will NOT 
cause impact to Sandia's schedule performance, as we demonstrated 
through progress in FY13. I say this for two reasons. First, we do not 
view this program as inherently high technical risk, especially when 
compared with other product development programs conducted at Sandia. 
Second, we manage our contingency funds (10%) in a manner that 
continuously buys down risk against a formalized risk register.
    With respect to budgetary changes, I cannot be as sanguine. In 
FY13, sequestration impacts caused some technical activities to be 
moved into FY14. We estimated the schedule impact of those shifts to be 
relatively small--on the order of 2 to 3 months over the life of the 
program (within overall schedule contingency). However, at the time of 
this testimony, we are operating against a FY14 resource allocation 
that, on an annual basis, is at least 23% below the FY14 requirement, 
as contained in the most recent NNSA-approved Baseline Change Requests 
to the Selected Acquisition Report, approved in October 2013. Until the 
final FY14 Energy and Water Development Appropriations bill is enacted, 
NNSA does not have the authority to provide a definitive funding level 
for the program. Obviously, unless addressed, budgetary changes of this 
magnitude will have significant schedule impact. As with any large 
program activity, schedule slip will result in an increase in overall 
program cost. In addition to the points above, Sandia is aware of the 
fiscal challenges this program imposes on Congress. To further 
adherence to the schedule and cost, we are aggressively implementing an 
increased level of project management rigor to the B61-12 program. Our 
technical experts are partnered with project management professionals, 
skilled practitioners using a suite of formal tools, such as resource-
loaded schedules, requirements tracking systems, and sophisticated risk 
management and mitigation methods. We are moving to an Earned Value 
Management System (EVMS), which is a way of quantitatively measuring 
where one is in the execution of a project regarding schedule and cost. 
While these approaches add to execution overhead, they provide 
essential insights and early indicators for a project of this scope and 
duration. With EVMS, we can use tailored assessments to look at cost 
and schedule performance indicators on a monthly basis, examine each 
subsystem, and track more accurately how each team is doing in 
developing those subsystems--and we can make immediate, early changes 
if necessary, applying more or fewer resources to each particular 
element of the project, as required.
    We believe Sandia has an achievable plan and the technical risk is 
manageable under the WDCR, and at the time of my testimony we continued 
to be on schedule and on budget relative to the March 2020 first 
production unit (FPU) documented in the Selected Acquisition Report. We 
are adjusting our plans as the fiscal situation evolves and are 
confident that we have the expertise and tools in place to effectively 
manage the program going forward.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. Secretary Creedon, you noted that only after rigorous 
and thorough evaluation of each possibility did the Nuclear Weapons 
Council unanimously conclude that the B61-12 full-scope LEP was the 
least expensive long-term option that could meet military requirements. 
Was a detailed cost study done for the 1E option and presented to the 
Nuclear Weapons Council?
    Secretary Creedon. Yes a detailed cost study was done for the 1E 
option, it was presented to the Nuclear Weapons Council (NWC) and they 
rejected it in favor of the B61-12 LEP (3B option). The NWC rejected 
the 1E option primarily because it did meet all threshold requirements 
established by the NWC and it would require a second life extension 
program over its planned service life, significantly increasing the 
overall long-term cost. Option 1E also failed to consolidate any of the 
non-strategic variants of the B61 preventing significant reductions in 
the nuclear stockpile and any long-term cost savings this could 
provide.
    Ms. Sanchez. What is the reason for consolidating the B61 mods? Is 
there a reason other than simplicity/streamlining the stockpile? Does 
it save NNSA or the Air Force money? If so, how much?
    Secretary Creedon. Consolidation of the B61 modifications provides 
cost savings over the long-term associated with simplifying and 
streamlining the surveillance, maintenance, and training requirement 
for the National Nuclear Security Administration and the Air Force, and 
this was a factor in the decision. Consolidating also meets the 
President's goals of reducing the numbers of nuclear weapons in the 
U.S. inventory by ultimately allowing a more than 50 percent reduction 
in the numbers of nuclear gravity bombs, and more significantly a more 
than 80 percent reduction in the amount of nuclear material contained 
within those bombs.
    Ms. Sanchez. What are the expected cost-savings from doing the B61-
12?
    Secretary Creedon. The largest and most substantial cost savings 
realized from completing the full scope B61-12 Life Extension Program 
(LEP) will be derived from other LEPs that will not be needed. It 
allows us to retire the B83 warhead, avoiding a refurbishment roughly 
estimated by the National Nuclear Security Administration (NNSA) to 
cost between $4 and $5B. By completing a single, full-scope LEP of the 
B61 instead of two separate, limited scope refurbishments, it will save 
roughly an additional $2B during the service life of the bomb. In 
addition, a limited amount of cost-savings will be found in the reduced 
requirements for NNSA surveillance, and Air Force training and 
maintenance due to retirement and consolidation of current gravity 
bombs into the single B61-12 bomb.
    Ms. Sanchez. Since our allies are not contributing any funds to the 
$10-$12 billion cost of the B61 life extension program, have other 
measures to provide reliable extended deterrence been discussed in 
consultations with NATO capitals? Why, why not? Has the Administration 
discussed NATO contributing to B61 LEPs?
    Secretary Creedon. NATO Allies have not been asked to contribute 
funds to the cost of the B61 LEP, which is a U.S. weapon. Alliance 
members do contribute to the nuclear mission both with conventional 
support and with regard to NATO's nuclear posture. In this latter 
respect, through the NATO Security Investment Program, NATO allies 
provide funding for security and infrastructure enhancements and 
upgrades at European nuclear weapons storage sites. Moreover, NATO 
Allies burden-share in the nuclear mission both by assigning pilots and 
dual-capable aircraft to the mission, and by conventional support 
operations, such as the SNOWCAT program (``Support of Nuclear 
Operations with Conventional Air Tactics''). It would not be 
appropriate to ask NATO Allies to contribute to the cost of the B61 LEP 
both because it would subject classified U.S. nuclear data to 
disclosure to foreign nations, and because it could subject nations to 
charges of proliferation.
    Ms. Sanchez. How much funding does NATO contribute to enabling the 
deployment of nuclear weapons in Europe?
    Secretary Creedon. NATO Allies contribute to deterrence through the 
NATO Security Investment Program (NSIP), which funds security and 
infrastructure enhancements and upgrades at European nuclear weapons 
storage sites. There have been four NATO weapons storage-related 
upgrades (Capability Package upgrades) since the original NATO 
Capability Package was approved in 2000:





                                                                       Project Total (M)\1\
Initial WS3 Installation                                               approx. $215M USD
Basic Capability Package (Jul 2000)                                    12.8M EUR
Addendum 1 (Feb 2005)                                                  17.9M EUR
Addendum 2 (Apr 2006)                                                  13.0M EUR
Addendum 3 (Mar 2009)                                                  13.0M EUR
Addendum 4 (Aug 2011)                                                  108M EUR
----------------------------------------------------------------------------------------------------------------

\1\ NATO common funding derives from U.S. and other contributions. The U.S. burden-share costs are generally 24
  percent of the NATO budget. The U.S. burden-share is generally 22-24 percent of the total NSIP costs. As a
  result, the NATO funds above include the U.S. contribution to NATO.


    Additionally, bilateral agreements require the host-nation to 
provide ``mission-related facilities, services, supplies and other 
logistical support'' for our units at each of the six sites. These may 
generally be scoped down to facilities and utilities, but the type and 
level of services, as well as funding for services provided, vary at 
each location.
    Ms. Sanchez. In the medium term, would it be possible to provide 
reliable extended deterrence without forward-deploying B61s?
    Secretary Creedon. The B61 warhead serves a unique and important 
role. It is the only non-strategic nuclear weapon in the U.S. arsenal, 
which means it can be delivered by tactical fixed-wing aircraft, such 
as F-15, F-16, and future F-35 jet fighters--including aircraft flown 
by our Allies in NATO. As such, it is one of the few areas where Allies 
can burden-share in the nuclear deterrence mission. The inability to 
forward deploy B-61s will undermine important U.S. assurance and 
deterrence commitments set forth in both the 2010 Nuclear Posture 
Review and the June 2013 nuclear employment guidance.
    Ms. Sanchez. Senator Sam Nunn recently suggested that forward-
deployed B61s in Europe are becoming more of a security risk than an 
asset for NATO. What is the security risk of having B61s forward-
deployed? Are B61s currently safe and secure?
    Secretary Creedon. U.S. nuclear weapons deployed in Europe are safe 
and secure. The Weapon Storage and Security System (WS3), security, and 
custodial forces all combine to meet the Nuclear Weapon Security 
Standard. The NATO High Level Group Vice-Chair for Safety, Security, 
and Survivability oversees the efforts to ensure the security standards 
are continuously met--the same standards as the U.S.-based systems. 
Under the HLG authority, the Joint Theater Surety Management Group 
(JTSMG) manages the day-to-day nuclear surety mission in NATO. The 
security system is continuously evaluated to identify opportunities for 
further enhancement. Currently, there are several NATO-funded security 
enhancement projects in progress to enhance security force detection 
and awareness capabilities, and improve security response effectiveness 
at all storage sites in Europe. Additionally, all contributing nations 
continually work together to improve command and control, and security 
force techniques, tactics, and procedures (TTPs) through semi-annual 
modeling and joint force-on-force exercises. As a result, the B-61s 
assigned to NATO are safe and secure.
    Ms. Sanchez. Where are we on the 3+2 strategy? Is this on track to 
be funded? What are the discussions to date? If the 3+2 plan is 
pursued, when would nuclear reductions occur?
    Secretary Creedon. We remain committed to the strategy and want to 
see it implemented in order to obtain its benefits, which include 
nuclear reductions. Our first Life Extension Program (LEP) implementing 
this strategy is the B61-12, and we won't know if that funding is on 
track until Congress completes its Fiscal Year (FY) 2014 budget work. 
The reductions from sequestration and delays in fiscal year 2013 
funding from the continuous resolution have already caused a slip for 
first production unit from FY 2019 to FY 2020.
    Reductions in the number of nuclear weapons resulting from the B61-
12 deployment would begin in the mid to late 2020s, dependent upon when 
confidence is achieved in the B61-12 through surveillance testing. 
Nuclear reductions would typically occur about 7-9 years after first 
production unit of a modernized weapon depending upon the number of 
surveillance tests performed and the results of those tests.
    The 3+2 strategy is at risk due to current budget constraints. 
Inter-operable 1 and the long-range stand-off weapons may also be 
delayed to fit within current budget constraints.
    Ms. Sanchez. As part of the currently proposed plan for the B61 
LEP, it appears the assumption is that the United States will continue 
to forward-deploy tactical versions of the B61 in Europe for the next 
50 years. In addition, the new high-level nuclear weapons policy 
guidance signed by President Obama in June could reduce the number of 
strategic gravity bombs that are required for deterrence. How might 
changes to existing deterrence requirements alter the currently 
proposed scope of the B61 LEP? And what is the assumption for the 
timeline for forward-deploying these weapons in Europe?
    Secretary Creedon. Both the 2010 Nuclear Posture Review report, and 
the Administration's 2013 nuclear employment guidance acknowledged the 
fact that the international security environment has changed 
dramatically since the end of the Cold War. Even with this change, 
however, the guidance set out in both documents acknowledged the 
importance of extended deterrence--both to send a credible signal to 
adversaries that any perceived benefits of attacking the United States 
and its Allies and partners are outweighed by the costs that our 
response would impose; and to assure Allies and partners that the 
United States is committed to their defense. Together, these documents 
demonstrate the U.S. nuclear posture--including current plans for the 
B61 LEP--is suited to the current security environment and, by 
extension, to existing deterrence requirements. Currently, the First 
Production Unit for the B61-12 is scheduled for 2020 to support 
commitments. That said, we will continue to seek the goal of a world 
without nuclear weapons.
    Ms. Sanchez. Would the planned surety enhancements that require 
changes to the nuclear package be required if B61s were kept in the 
U.S. rather than forward-deployed in NATO countries?
    Secretary Creedon. There are no planned changes to the nuclear 
package of the B61-12. The planned security enhancements would still 
need to be included as part of the B61-12 Life Extension Program 
regardless of the status of weapons based in NATO countries because of 
the Administration's stated requirement to retain the capability to 
forward deploy U.S. nuclear weapons on tactical fighter-bombers and 
heavy bombers outside of the continental United States.
    Ms. Sanchez. a. What is the reason for consolidating the B61 mods?
    Dr. Cook. a. The consolidation of the B61 Mods is an opportunity 
afforded by the Air Force Tail Kit, which eliminates the need to extend 
multiple B61 modifications and associated Air Force integration and 
sustainment costs. Additionally, there are significant benefits that 
will be gained by completing the B61-12 LEP, including:
    <bullet>  The majority of the air delivered gravity weapons will be 
removed from the U.S. nuclear stockpile (active and inactive).
    <bullet>  A very large reduction in the total amount of nuclear 
material utilized by air delivered gravity weapons in the U.S. nuclear 
stockpile.
    <bullet>  Significant reduction in the total nuclear yield (i.e., 
mega-tonnage) produced by air-delivered gravity weapons in the U.S. 
nuclear stockpile.
    These planned reductions in the numbers of weapons, amounts of 
nuclear material, and total yield are dependent upon the successful 
completion of the B61-12 LEP. They are a key part of the 
Administration's long-term plan to demonstrate that we are meeting our 
Non-Proliferation Treaty Article VI obligation to make progress towards 
disarmament.
    Ms. Sanchez. b. Is there a reason other than simplicity/
streamlining the stockpile?
    Dr. Cook. b. As stated above, there is a strong arms control 
component to Mod consolidation. Further, the use of the Air Force tail 
kit eliminates the need to re-establish production of the unique 
parachutes used by today's B61.
    Ms. Sanchez. c. Does it save NNSA or the Air Force money? If so, 
how much?
    Dr. Cook. c. Yes. Beyond reducing long term project Alt and LEP 
costs by approximately 50% (see answer to Question 16 & 17), there is a 
reduced sustainment cost to NNSA for a single B61-12 and no B83. Any 
reduced cost for the Air Force will have to be answered by the service.
    Ms. Sanchez. What are the expected cost-savings from doing the B61-
12?
    Dr. Cook. NNSA's Defense Programs, Office of Program Integration, 
completed a B61 Alternatives Analysis in FY 2013. The analysis 
considered the current B61-12 mod consolidation strategy versus an 
alternative that would maintain the current family of B61s and the B83. 
The analysis demonstrated that the costs of the B61-12 LEP approach are 
approximately half of what would be required to maintain the existing 
bombs stockpile without Mod consolidation. The analysis compared the 
costs to maintain the B61-12 versus the existing gravity bombs 
stockpile (B61 family and B83) over 25-year and 50-year planning 
windows. For the B61-12 LEP, the analysis assumed a 20 year stockpile 
life and a second LEP is required in the 50 year planning window. For 
the existing bombs stockpile, the analysis assumed non-nuclear 
alterations on the B61-3, B61-4, B61-7 and B83-1 would be initially 
performed prior to 2030 and full LEPs on both bomb families before 
2040. The B61-12 LEP, as currently authorized by the Nuclear Weapons 
Council and requested in the Administration's FY 2014 budget request, 
is the lowest cost option that meets military requirements. Any other 
alternative would not meet military requirements and would drive-up 
lifecycle costs for these modernization activities, which are necessary 
to realize the President's nuclear security vision.
    Ms. Sanchez. How does the cost per unit for the B61-LEP compare 
with previous LEP costs for other nuclear weapons?
    Dr. Cook. Cost per unit is dependent on the total production 
quantity, which is classified and available in the classified addenda 
of the B61-12 and W76-1 Selected Acquisition Reports. These unit costs 
are consistent between the programs in terms of the relative complexity 
and total production quantities.
    Ms. Sanchez. We've known about many of the aging issues regarding 
certain critical non-nuclear components in the B61 for at least a 
decade. Why have we waited to address the highest priority aging issues 
in the B61 and why have we not replaced aging non-nuclear components 
such as vacuums tubes earlier?
    Dr. Cook. NNSA prioritized stockpile modernization in accordance 
with funding, capacity, and assessed stockpile reliability. Replacement 
of the radars was originally planned to be addressed in conjunction 
with a non-nuclear life extension program (NNLEP) with a target FPU 
date in 2012. The target date was aligned with other limited life 
component (LLC) expirations. Due to competing priorities on the W76-1 
program, the ability to field LLC expirations and other stockpile 
sustainment commitments the NNLEP and associated study was delayed. 
With the Phase 6.2/2A study conducted between 2009 and 2011, 
refurbishment of the nuclear explosive package was deemed necessary to 
avoid a second costly LEP in the near future. The consolidation of non-
nuclear and nuclear work also limits the movement of weapons to and 
from deployed locations, minimizing any vulnerability associated with 
the movement of weapons.
    Ms. Sanchez. Where are we on the 3+2 strategy? Is this on track to 
be funded? What are the discussions to date? If the 3+2 plan is 
pursued, when would nuclear reductions occur?
    Dr. Cook. In November 2012, the Nuclear Weapons Council selected a 
baseline stockpile life extension plan that implements the ``3+2'' 
vision of which three interoperable warheads for ballistic missiles is 
an integral part. The baseline plan was detailed in a Nuclear Weapons 
Council memorandum dated January 15, 2013. The Nuclear Weapons Council 
plan establishes the framework to develop more detailed implementation 
plans for deployment of interoperable warheads. Over the coming months, 
NNSA and the Department of Defense will work together to continue to 
analyze cost, scope, schedule and other implications of this vision as 
a means to inform future decisions regarding the nuclear weapons 
enterprise. The FY 2015 President's Budget Request is under 
development. The budget requests will describe funding plans for the 
``3+2'' vision for the next several years. Per the FY 2014 Stockpile 
Stewardship Management Plan, the vision is achievable, though it may 
require some modification and/or delay in the current funding 
environment. Stockpile quantities are determined by the Department of 
Defense.
    Ms. Sanchez. As part of the currently proposed plan for the B61 
LEP, it appears the assumption is that the United States will continue 
to forward-deploy tactical versions of the B61 in Europe for the next 
50 years. In addition, the new high-level nuclear weapons policy 
guidance signed by President Obama in June could reduce the number of 
strategic gravity bombs that are required for deterrence. How might 
changes to existing deterrence requirements alter the currently 
proposed scope of the B61 LEP? And what is the assumption for the 
timeline for forward-deploying these weapons in Europe?
    Dr. Cook. Uncertainty in the existing deterrence requirement 
reinforces the current B61-12 LEP option. The current option provides 
global flexibility in the strategic and tactical employment of the B61-
12 and optimizes our hedging options. Assumptions for the timeline of 
forward deploying weapons must be addressed by DOD.
    Ms. Sanchez. Would the planned surety enhancements that require 
changes to the nuclear package be required if B61s were kept in the 
U.S. rather than forward-deployed in NATO countries?
    Dr. Cook. Yes. Even without the requirement to forward deploy the 
B61, this scope would be required.
    Ms. Sanchez. The CAPE cost study noted Sandia's view that the B61 
is 3 or 4 times more complex than the W76 LEP. Do you still agree? What 
are the challenges for Sandia related to the planned work scope for the 
B61?
    Dr. Hommert. Following direction from the B61-12 Project Officers 
Group, chaired by the U.S. Air Force, the B61 LEP will consolidate four 
of the current versions, or Mods, of B61 bombs (the B61-3, B61-4, B61-
7, and B61-10) into a single Mod, the B61-12. The result will be 
reduced U.S. Air Force nuclear weapon management complexity, as well as 
reduced U.S. Air Force cost for ongoing maintenance, training, and 
stockpile evaluation. This Mod consolidation is made possible through 
use of a Tail Kit, which is the responsibility of the U.S. Air Force 
and is designed to maintain existing military capability.
    Complexity suggested in the question needs to be answered in 
relative to the technical work scope. I have the highest level of 
confidence that technical issues will NOT cause impact to Sandia's 
schedule performance, as we demonstrated through progress in FY13. I 
say this for two reasons. First, we do not view this program as 
inherently high technical risk, especially when compared with other 
product development programs conducted at Sandia.
    At the system level complexity between the B61-12 and W76-1, 
Sandia's scope in the B61-12 involves more components and has the 
additional challenge to make the B61-12 compatible with five aircraft 
platforms
    Sandia is applying documented lessons learned from our design work 
for the W76-1 and incorporating it to the B61-12 program throughout 
component work and system design. And, as we learn lessons from the 
B61-12 program, they will be utilized for the other programs underway 
and planned. The B61 LEP does not involve significant changes to 
environmental or functionality requirements; therefore, the inherent 
technical risk is lowered and will not impact the March 2020 FPU if the 
WDCR funding profile is sustained.
    Challenges Sandia has faced and addressed are the impacts of the 
FY13 sequestration. We managed sequestration by moving some technical 
activities into FY14. Additionally, staffing up for the B61-12 was also 
a challenge. The staffing requirement for these modernization efforts 
exceeds 1,000 people. I am pleased to report that, despite numerous 
periods of budget uncertainty over the past two years, we have been 
extremely successful at staffing the program against a very aggressive 
staffing plan. Two staffing approaches have allowed us to achieve the 
required staffing levels for the modernization programs: (1) internal 
staff movements from other Sandia programs that require skills 
synergistic with those for the nuclear weapons program and (2) external 
hiring. Since 2010, we have hired some 500 advanced-degree scientists 
and engineers. The overall number of members of the workforce at the 
Laboratory remained essentially flat through this period. Of those we 
hired new to Sandia, approximately 58% are early in their professional 
careers. The modernization program provides opportunities for these new 
technical staff to work closely with our experienced designers: from 
advanced concept development to component design and qualification, and 
ultimately to the production and fielding of nuclear weapon systems.
    We believe Sandia has an achievable plan and the technical risk is 
manageable under the WDCR, and at the time of my testimony we continued 
to be on schedule and on budget relative to the March 2020 first 
production unit (FPU) documented in the Selected Acquisition Report. We 
are adjusting our plans as the fiscal situation evolves and are 
confident that we have the expertise and tools in place to effectively 
manage the program going forward.
    Ms. Sanchez. The technology for many of the LEP components were at 
TRL 3 or 4 as of August 2012. Are you on schedule and when do you plan 
to have most components at TRL 6 or higher?
    Dr. Hommert. Yes, we are on plan for the technology maturation for 
the B61-12 components. The qualification plan for each major component 
includes a technology readiness forecast describing the required 
technological demonstrations required for the remaining TRL steps and a 
projection of when those steps will be reached. Based on the documented 
criteria for Technology Readiness Level 6, the components must 
demonstrate performance in the B61-12 flight conditions. Based on the 
schedule at the time of the testimony, these flight tests were planned 
for fiscal year 2015 prior to baseline design review assuming full WDCR 
funding.
    Ms. Sanchez. Do you agree that NNSA and DOD must prioritize what it 
needs from the labs and sites over the next several years? And are the 
LEP schedules realistic from a lab perspective?
    Dr. Hommert. The B61 LEP is the first and most urgent in a series 
of LEPs and ALTs required to sustain the U.S. nuclear stockpile into 
the future. We will support the Nuclear Weapons Council to maintain the 
stockpile for sustained deterrence for the coming decades. 
Accomplishing this work will require prioritization to achieve the 
appropriate strategy set by policymakers. Sandia will be poised to 
provide cost efficient, innovative, and successful strategies to future 
stockpile work based on the B61-12 and other programs. Our successful 
record of using common technologies and components across multiple 
systems that have been deployed in the U.S. stockpile has helped reduce 
development risk and manage development costs. We are extending this 
approach to development of the Arming, Fuzing, and Firing (AF&F) 
system. Today, a modular AF&F design is being developed for the W88 ALT 
370, the Mk21 Fuze Replacement, and potentially for the W78/88-1 LEP.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Under the current modernization plan, what happens to 
the B-83s? Will they be dismantled or kept in reserve?
    Secretary Creedon. Our plan is to retire the B83 warhead in the 
late 2020s and then dismantle it. It is the last megaton weapon in our 
stockpile, and we plan to eliminate it because we no longer need that 
much output from a weapon to meet our security needs. If we were to 
keep it, it would require a Life Extension Program to start within the 
next few years.
    Mr. Langevin. What role does the B-61 play in deterrence that 
cannot be achieved by ballistic missiles, cruise missiles, or other 
means, particularly in extended deterrence in Europe?
    Secretary Creedon. The B61 warhead serves a unique and important 
role that cannot be achieved by other means, including ballistic or 
cruise missiles. It is the only non-strategic nuclear weapon in the 
U.S. arsenal, which means it can be delivered by dual-capable (i.e., 
tactical fixed-wing) aircraft, such as F-15, F-16, and future F-35 jet 
fighters--including ones flown by NATO. Moreover, unlike a nuclear 
weapon in an underground silo or in an underwater submarine, it assures 
Allies and partners by providing them with a visible and tangible 
demonstration of the seriousness of the U.S. extended deterrence 
commitment. Finally, it is flexible in that, even after being 
dispatched on a mission, the aircraft can be recalled any time before 
delivering its ordnance. Based on these differences, the B61 plays a 
vital role in U.S. extended deterrence.
    Mr. Langevin. Are there military missions filled by the B-61 that 
cannot be met by other systems? Would the requirement for the B-61 
persist if gravity weapons were removed from Europe? How would 
development of the LRSO affect the need for the B-61?
    Secretary Creedon. There are still some military missions that 
cannot be filled by conventional weapons or other components of the 
nuclear Triad and require a nuclear gravity bomb. The requirement for 
the B61-12 Life Extension Program would remain regardless of the status 
of U.S. nuclear weapons in Europe. The Administration requires that the 
DOD maintain the capability to forward deploy U.S. nuclear weapons on 
tactical fighter-bombers and heavy bombers and the B61 is the only 
nuclear weapon currently capable of being carried on a tactical fighter 
bomber. Development of the long-range standoff weapon would not change 
the need for the B61-12 LEP as both air delivered weapons provide 
distinctively different and complementary capabilities and employment 
options.
    Mr. Langevin. NNSA has a very aggressive modernization portfolio to 
manage, with 4-5 concurrent life extension programs for many years into 
the future. How does the NNSA plan to manage these without cost and 
schedule issues, particularly given the complexity of the B-61 LEP?
    Dr. Cook. The 4-5 concurrent LEPs referred to are in different 
phases that place different demands on the nuclear security enterprise. 
Phase 6.2/2A (Feasibility and Cost Study) activities tend to be focused 
on technology maturation and computationally supported analysis and 
mostly involves the weapons laboratories. Phase 6.3 (Development 
Engineering) is focused on the design and testing of components and 
subsystems that make use of design and computational capabilities along 
with testing facilities at the laboratories and preliminary production 
engineering at the potential production facilities. Phase 6.3 continues 
as Phase 6.4 ramps up as decisions on specific technologies and designs 
are decided upon and the production facilities perform process prove-in 
to ensure war reserves (WR) quality parts can be reliably produced. 
Laboratory involvement in the LEPs tends to peak just prior to FPU 
after which their support is required to resolve production issues. 
Production facilities carry most of the workload/effort following Phase 
6.5 (FPU) and into Phase 6.6 full rate production. The W76 LEP is 
currently in full rate production to be completed by FY 2019. The B61 
LEP will reach FPU in FY 2020 with Phase 6.3 activities currently 
underway. The cruise missile and IW-1 LEPs have FPUs in FY24 and FY25, 
respectively so most of their Phase 6.3/6.4 activities will occur after 
Phase 6.5/6.6 activities have commenced for the B61. The scheduling of 
these LEPs has been subject to enterprise modeling to establish the 
feasibility of their concurrent execution and to identify and resolve 
potential ``choke points'' in capability. Additionally, the recent 
workforce prioritization study conducted by NNSA determined that the 
NNSA sites were capable of staffing these activities in addition to 
staffing other ongoing critical activities such as surveillance and 
assessment (contingent on the provision of sufficient funding). 
Critical to planning and integrating all these activities will be 
federal leadership. Defense Programs recently reorganized to establish 
the Office of Major Modernization Programs (NA-19) to focus management 
of LEPs and major construction projects in support of modernization of 
key capabilities separate from the day to day maintenance of the 
stockpile. Defense Programs also established the Office of Systems 
Engineering and Integration (NA-18) to put systems engineering and 
integration tools in place to better apply these tools to the LEPs, 
major construction efforts, and the overall program. In addition, the 
Office of Infrastructure and Operations was established to focus on 
maintaining, operating, and modernizing the National Security 
Enterprise. It is critical to remember that funding for NNSA 
infrastructure investments is also limited. Funding for NNSA 
infrastructure investments is also limited. This could cause system- or 
facility-level failures in the enterprise that would preclude safe and 
secure operations, causing unplanned delays in the B61 LEP and other 
programs.
    Mr. Langevin. Under the current modernization plan, what happens to 
the B-83s? Will they be dismantled or kept in reserve?
    Dr. Cook. Defense officials have stated that once the B61-12 LEP is 
completed, and the Department of Defense has sufficient confidence in 
the resulting warhead, the Defense Department would be in a position to 
pursue retirement of the B83 gravity bomb. Retired warheads are no 
longer part of the stockpile and are eventually dismantled.
    Mr. Langevin. Dr. Cook, in November 2011, the cost estimate for the 
B-61 was $5 billion. In July 2012, it was $7.9 billion, and now it is 
at $8.1 billion, and reports are that the 2012 CAPE estimate is over 
$10 billion. What accounts for these increases? If sequestration 
continues in FY14, can we expect further increases in cost? And 
frankly, why should we have faith in the current estimates?
    Dr. Cook. NNSA reported a $4B number in the FY 2012 Stockpile 
Stewardship Management Plan (SSMP) and stated that the ``definitive 
estimate'' would not be established until after the completion of the 
Weapon Design and Cost Report (WDCR) and Phase 6.2A study in 2011. By 
``definitive'' NNSA meant an official cost estimate for the program 
using formal criteria based cost estimating process. This $4B number 
reported in the FY 2012 SSMP was based on a parametric estimate 
developed in 2009 prior to the establishment of the B61-12 product 
teams, documentation and assessment of military requirements, and 
completion of the feasibility and cost study. Following the 6.3 
decision, NNSA and the U.S. Air Force finalized the requirements for 
the selected LEP option, and finalized the B61-12 WDCR in July 2012. 
After further work on risk mitigation and schedule integration, the 
NNSA submitted the initial cost estimate for the B61-12 LEP to Congress 
in May 2013, with the first formal Selected Acquisition Report (SAR). 
Other than to account for the added schedule driven by sequestration 
cuts in FY 2013, that baseline cost estimate has not deviated from the 
WDCR from July 2012. The current cost estimate reported in the 
September 2013 Selected Acquisition Report to Congress is $8.1B which 
includes $7.3B in direct B61-12 funding and another $0.8B in other NNSA 
funds. NNSA is submitting quarterly updates to Congress on cost and 
schedule and will formally update the cost estimate following the 
Baseline Design Review to establish an Acquisition Program Baseline in 
FY 2016. The official WDCR estimate is founded on firm military 
requirements and a disciplined approach to product realization informed 
by historical data. This is a significant investment consistent with 
other major weapon-system acquisitions. To keep the program on schedule 
and to control cost, NNSA has implemented rigorous systems engineering 
and program management practices. As required each quarter, NNSA will 
submit to Congress our continued progress in subsequent Selected 
Acquisition Reports.
    Mr. Langevin. What cost components to the B-61 LEP will have to be 
incurred as part of future LEPs, regardless of any changes to the B-61 
LEP?
    Dr. Cook. The $811M ``other program funds'' that are reported in 
the B61-12 Selected Acquisition Report are enabling technologies and 
production capabilities that will be utilized by future LEP and ALTs. 
Additionally, many of the component designs and technologies being 
deployed on the B61-12 will support other programs. Examples include:
    <bullet>  Common radar and associated testers and tooling is a 
common technology that is shared between the W88 ALT 370 and expected 
to be deployed on future LEPs
    <bullet>  B61-12 stronglink technologies and associated testers and 
tooling are common with the W88 ALT 370 and expected to be deployed on 
future LEPs
    <bullet>  B61-12 weapon control unit, system II interface and 
aircraft integration testing will support future air delivered LEP and 
ALTs including a cruise missile warhead for the Air Force Long Range 
Standoff program.
    <bullet>  Qualification and certification of PBX9502 Insensitive 
High Explosives (IHE) production capabilities will support future LEPs.
    Mr. Langevin. What cost components to the B-61 LEP will have to be 
incurred as part of future LEPs, regardless of any changes to the B-61 
LEP?
    Dr. Hommert. Regarding the B61, in recent years, my annual 
assessment letters have documented concerns related to technology 
obsolescence and aging. While the B61 is currently safe and secure, 
these concerns continue to increase. For example, in the past three 
years, we have observed time-dependent degradation not seen before in 
electronic, polymer, and high-explosive components. This observation is 
not surprising given the age of the B61 weapon system, the oldest units 
of which were manufactured and fielded in the late 1970s with some 
components dating back to the 1960s. To sustain the B61 into the next 
decade and beyond requires these known issues to be addressed as 
planned and being executed by Sandia. The program is also addressing 
technology obsolescence. Electronic components of the B61 were designed 
and manufactured decades ago. Outdated technologies, such as vacuum 
tubes, are exhibiting performance degradation and are difficult to 
evaluate and assess with confidence.
    Any scope changes to the B61-12 have a cost impact on the other 
programs currently underway. Wherever possible, component technologies 
have been selected to facilitate incorporation into emerging designs 
for the W88 ALT 370, Mk21 Fuze replacement, and other additional 
potential modernization efforts.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN

    Mr. Coffman. Given that the B61 LEP is an extremely expensive life 
extension program, do you believe that our NATO allies should bear a 
financial burden for their security, especially in light of the current 
budget environment in the U.S.; and the fact that one of the most oft-
stated rationales for the LEP is to support U.S. commitments to NATO?
    Secretary Creedon. NATO Allies already bear a financial burden for 
Alliance security both with their conventional forces and in regard to 
NATO's nuclear posture. In this latter respect, through the NATO 
Security Investment Program, NATO allies provide funding for security 
and infrastructure enhancements and upgrades at European nuclear 
weapons storage sites. Moreover, NATO Allies burden-share in the 
nuclear mission both by assigning pilots and dual-capable aircraft to 
the mission, and by supporting the nuclear mission with conventional 
operations (such as the SNOWCAT program--``Support of Nuclear 
Operations With Conventional Air Tactics'').
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS

    Mr. Brooks. I understand the Senate Appropriations Committee has 
proposed cutting the B61 LEP by 31% for FY14 and is encouraging NNSA to 
reduce the scope of the LEP. For all of our witnesses, what would be 
the impact of this cut, were it to be become law? a. If the B61 LEP 
were canceled or de-scoped to the ``triple-alt'' today, what would be 
the short term cost savings? What would be the long-term cost 
increases? b. The Senate Appropriations Committee has also cut all 
money for the Air Force's tail kit portion of the B61 LEP. If the tail 
kit is not funded, what are the impacts on the LEP? What are the cost 
impacts? Is it possible to do the LEP without doing the tailkit?
    Secretary Creedon. To cut the B61 LEP to such an extent this year 
would significantly delay its delivery, and dramatically increase the 
overall cost to complete any LEP of the bomb. a) There would be 
absolutely zero short-term cost savings achieved by canceling or 
``descoping'' the B61-12 LEP. There would be several long-term cost 
increases, many of which would be transferred to future planned LEPs 
that had intended to leverage cost savings by utilizing many of the 
same non-nuclear components being developed for the B61-12. 
Additionally, we would be unable to retire the B83 warhead, forcing us 
to begin a costly LEP of that bomb roughly estimated by the National 
Nuclear Security Administration (NNSA) to cost $4-$5B, and we would 
also need to start planning a second LEP of the B61 to refurbish those 
components that were not included in the ``triple-alt.'' That second 
B61 LEP is roughly estimated by NNSA to cost $5-$6B dollars. b) If 
funding for the B61-12 tail kit assembly (TKA) were cut, the B61-12 
would not be possible, and this would not be the only nuclear gravity-
dropped weapon in the nuclear stockpile. Without the TKA the currently 
planned consolidation of four versions of B61 and the planned 
retirement of the B83 could not happen. As mentioned previously, if it 
is not possible to retire the B83 it will need a separate LEP estimated 
by NNSA to cost roughly $4-$5B. The Air Force and NNSA could conduct an 
LEP on the various variants of the B61, but in the absence of the TKAS 
the consolidation would not happen.
    Lastly if either the B61-12 LEP is de-scoped/cancelled or the B61-
12 TKA is cancelled, it will be impossible to achieve the planned 53 
percent reduction in total nuclear gravity weapons or the 83 percent 
reduction in total nuclear material contained within the nuclear 
gravity weapons in the U.S. nuclear stockpile.
    Mr. Brooks. a. I understand the Senate Appropriations Committee has 
proposed cutting the B61 LEP by 31% for FY14 and is encouraging NNSA to 
reduce the scope of the LEP. For all of our witnesses, what would be 
the impact of this cut, were it to be become law? What would be the 
long-term cost increases? The Senate Appropriations Committee has also 
cut all money for the Air Force's tail kit portion of the B61 LEP. If 
the tail kit is not funded, what are the impacts on the LEP? What are 
the cost impacts? Is it possible to do the LEP without doing the 
tailkit?
    Dr. Cook. a. The Nuclear Weapons Council in December 2011 selected 
the Option 3B with an FPU in 2019 as the program for the B61-12 LEP. 
This option was chosen to satisfy the threshold (minimum) requirements 
at the lowest life cycle cost. The B61-12 LEP is now in its second year 
of full scale engineering development and is no longer a study. Any 
significant change in scope requires NNSA to renegotiate military 
requirements with the DOD and develop a new Weapon Design and Cost 
Report, cost estimate and schedule. There would also be impacts on 
component designs carried forward into the new scope which would 
require re-design to make them backwards compatible with multiple 
legacy B61 modifications. The renegotiation of requirements, new 
schedule and re-design effort would delay any new scope for 1-2 years. 
If the B61 12 LEP were not able to maintain its current schedule, then 
the program would face delays and increased costs. The B61-12 LEP would 
continue, but the savings from consolidations and retirements would 
also be delayed, further increasing future costs.
    Mr. Brooks. b. If the B61 LEP were canceled or de-scoped to the 
``triple-alt'' today, what would be the short term cost savings?
    Dr. Cook. b. Although there may be some initial savings, NNSA would 
need to begin a new life extension study effort to address aging in 
components not addressed by the smaller scoped ``triple alt.'' There 
will be additional costs to NNSA and the DOD to sustain the multiple 
modifications over the next two decades and NNSA would not be able to 
plan for the retirement of the B83. The life cycle costs are roughly 
double with the piece meal approach. In summary, canceling the B61 12 
LEP would offer few, if any, short-term budgetary advantages while 
creating significant long-term strategic and budgetary challenges
    Mr. Brooks. c. The Senate Appropriations Committee has also cut all 
money for the Air Force's tail kit portion of the B61 LEP. If the tail 
kit is not funded, what are the impacts on the LEP?
    Dr. Cook. c. In the early 2000s, the U.S. made the decision to 
discontinue the capability to produce the special parachutes used in 
the legacy nuclear bombs. The last technician with experience making 
these parachutes retired years ago. Additionally, some of the delivery 
modes that used the parachutes were the most challenging to certify and 
the most dangerous for our Air Force pilots. The decision to use an Air 
Force-provided tail kit improves the survivability of our pilots, 
reduces the certification challenge for our laboratories, and 
eliminates the need for a parachute. As an additional benefit, U.S. 
Strategic Command determined that with the accuracy provided by a tail 
kit, the yield provided by today's lowest yield B61 variant would be 
sufficient to meet all of the strategic and non-strategic requirements 
for gravity systems. As a result, there is no longer any need to 
design, develop, certify, or maintain multiple variations of the B61.
    Mr. Brooks. d. What are the cost impacts?
    Dr. Cook. d. The scope of the LEP or LEPs would need to be re-
negotiated without Mod consolidation. Costs will also increase to 
sustain the four nuclear explosive packages (NEP) types versus one to 
meet another 20-year service life. The magnitude of the increase is 
dependent on what is deemed adequate for reuse and what must be 
remanufactured. Many non-nuclear components can be common but unique 
NEP designs require some different electronics and components to meet 
specific fuzing modes and surety themes. The renegotiation of 
requirements, qualification programs, and redesigns would take up to 24 
months to implement and push FPU to 2021-2022.
    It is difficult to assess how much the total costs will increase 
without the re-negotiation of requirements, re-design and assessment on 
component reuse or remanufacture, including parachutes, as part of a 
new Phase 6.2A study and development of a Weapon Design and Cost 
Report. However, it is clear that this new scope will delay FPU and 
increase overall costs. Also, by not consolidating and producing 
quantities consistent with Nuclear Weapon Council decisions, DOD will 
still require the B83 1. Based on current aging trends and limited life 
component data, additional life extension work on the B83-1 will be 
required with a FPU as early as 2027. This cost is above and beyond the 
costs of performing multiple LEPs on the various B61 modifications.
    Mr. Brooks. I understand the Senate Appropriations Committee has 
proposed cutting the B61 LEP by 31% for FY14 and is encouraging NNSA to 
reduce the scope of the LEP. For all of our witnesses, what would be 
the impact of this cut, were it to be become law? a. If the B61 LEP 
were canceled or de-scoped to the ``triple-alt'' today, what would be 
the short term cost savings? What would be the long-term cost 
increases? b. The Senate Appropriations Committee has also cut all 
money for the Air Force's tail kit portion of the B61 LEP. If the tail 
kit is not funded, what are the impacts on the LEP? What are the cost 
impacts? Is it possible to do the LEP without doing the tailkit?
    Dr. Hommert. For a cut of this magnitude, significant schedule 
slips would be expected to the Sandia portion of the B61-12 development 
scope planned for FY14.
    Although the final FY14 budget is not finalized, there are risks 
from FY14 funding lower than requested by NNSA. In FY13, sequestration 
impacts caused some technical activities to be moved into FY14. We 
estimated the schedule impact of those shifts to be relatively small--
on the order of 2 to 3 months over the life of the program (within 
overall schedule contingency). However, at the time of this testimony, 
we are operating against a FY14 resource allocation that, on an annual 
basis, is at least 23% below the FY14 requirement, as contained in the 
most recent NNSA-approved Baseline Change Requests to the Selected 
Acquisition Report, approved in October 2013. Until the final FY14 
Energy and Water Development Appropriations bill is enacted, NNSA does 
not have the authority to provide a definitive funding level for the 
program. Obviously, unless addressed, budgetary changes of this 
magnitude will have significant schedule impact. As with any large 
program activity, schedule slip will result in an increase in overall 
program cost. We recognize the overall fiscal environment in which we 
are operating and will work at all times to minimize cost growth as a 
result of budget-induced schedule slip.
    First, it is my strongly held view that the current scope for the 
B61 LEP is the minimum necessary to meet the threshold requirements for 
the B61 provided by the Department of Defense and NNSA. (Any change to 
the current scope being executed at Sandia will have a short term cost 
increase. Sandia would have to halt its current work and initiate a 
6.2/6.2A design definition and cost study which is a lengthy process 
required for work such as LEPs.
    Second, NNSA has not conducted a comprehensive WDCR on a different 
scope program so I cannot assess the fiscal impact of a different 
program. However, any scope changes must be jointly agreed to by NNSA 
and DOD; specifically STRATCOM which must review the strategic 
deterrence needs of the U.S. and how a reduced scope would affect that 
capability. While DOD and the U.S. Air Force can provide further 
information, based on our work sustaining the legacy B61 stockpile, the 
U.S. Air Force would have to maintain the current variants of the B61 
stockpile and lose the benefit of consolidation. Furthermore, there may 
higher costs because the Triple Alt does not forestall the need for a 
B61-12 Life Extension Program in the near future to address drivers not 
accounted for in the limited program.
    Lastly, any scope reduction has the potential to require Sandia to 
jettison the previously completed design and qualification work 
underway for the current LEP. Sandia will have to start its work all 
over because of the change in design. There will also be concurrent 
impacts to the W88 ALT and Mk 21 fuze which currently utilize several 
B61-12 LEP components. Schedule slips to the B61-12 due to rescoping 
will ripple to these programs as well and could increase their costs.
    Although it is possible to complete a life extension without a 
tailkit, to do so would result in a weapon system that either fails to 
meet the mod consolidation or military effectiveness requirements 
sought by the Nuclear Weapons Council and STRATCOM. The limitations of 
this approach would need to be reviewed with the DOD (particularly 
STRATCOM) to consider implications on long range strategic planning and 
extended deterrence. DOD experts would better be able to speak to these 
implications.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI

    Mr. Garamendi. How does the nuclear long-range strike stand-off 
(LRSO) missile contribute to extended deterrence? Do we need both the 
B61 bomb and the nuclear LRSO if the LRSO contributes to extended 
deterrence?
    Secretary Creedon. Both the LRSO and the B61 will contribute to 
extended deterrence in support of our Allies. The LRSO, once fielded, 
will be a significant contributor to the U.S. strategic and regional 
deterrence missions. The LRSO will be able to provide enhanced standoff 
capability against adversaries with more advanced air defense, anti-
access, or area denial capabilities. The B61 is the visible, tangible, 
forward deployed weapon for extended deterrence; while the LRSO 
provides a reinforcing strategic bomber alternative that further 
enhances our support to Allies and Partners.
    Given the spectrum of modern day threats and the growing problem of 
nuclear proliferation in the 21st century, the President has directed 
that the U.S. will maintain both a strategic nuclear triad and non-
strategic nuclear force capabilities to deter adversaries and assure 
allies and partners. By developing and deploying an LRSO capability, 
and retaining the B61, the U.S. will enhance the credibility and 
effectiveness of strategic and non-strategic nuclear forces even as we 
transition to lower numbers in the stockpile. These systems coupled 
with the land-based and sea-based legs of the triad, and U.S 
conventional capabilities will ensure the President has a wide-range of 
options, at his disposal, in times of crisis. Retaining the B61 and 
deploying an LRSO capability reinforces the U.S. commitment to defend 
vital national interests and those of our allies and partners.
    Mr. Garamendi. How many B61-12 nuclear weapons will be produced, 
and how many rebuilt B61-12 bombs does the U.S. need for deterrence? 
How many are required for tactical use and how many are required for 
strategic use? How many nuclear weapons will be eliminated as a result 
of the B61-12 mod?
    Secretary Creedon. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. Can the B83 yield be increased and decreased (dialed 
up or down)? Please provide yield options (in classified format if 
necessary). If so, could it serve as the deterrent in place of the B61-
12?
    Secretary Creedon. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. Could the B83 or B61-7 be carried by fighter 
aircraft?
    Secretary Creedon. The B61-7 and the B83 warhead could be carried 
on fighter aircraft although there may be some compatibility issues to 
be resolved. However, they could not be used by fighter aircraft in 
forward-deployed operations because they lack a required security 
feature.
    Mr. Garamendi. Could the B61-7 only serve as a deterrent in place 
of the B61-12?
    Secretary Creedon. No. The B61-7 is facing significant aging issues 
and would require an extensive Life Extension Program (LEP) to remain 
in the stockpile. Its LEP scope would be the same as the B61-12 unless 
the tail kit was eliminated. In addition, the yields on the B61-7 would 
not meet military needs as effectively as those on the B61-12.
    Not having a tail kit would prevent stockpile reductions because it 
would prevent modification consolidation.
    The B61-12 is more than a single weapon modernization. It is part 
of a plan to maintain an effective deterrent, provide an acceptable 
extended deterrent solution our Allies, and enable significant 
stockpile reductions. We cannot achieve those objectives with any 
single bomb in our current arsenal or with a cruise missile.
    Mr. Garamendi. Can the B61-12 be used on any existing cruise 
missiles and future cruise missiles?
    Secretary Creedon. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. What is plan B if the currently planned B61-12 LEP 
does not get full funding or is delayed, in either FY14 or in the 
following years? Is a contingency plan being considered? What are the 
contingency plans for refurbishing the B61 and to maintain our 
commitments to NATO if the delay for the first production unit slips 
past 2020?
    Secretary Creedon. [The information referred to is classified and 
retained in the committee files.]
    Mr. Garamendi. Ms. Creedon, you noted that, ``The B61-12 LEP will 
consolidate multiple variants into a single design, which offers 
opportunities for significance stockpile reductions while maintaining 
national security objectives and extended deterrence commitments.'' 
When will these reductions occur? Is consolidation a military 
requirement?
    Secretary Creedon. We would begin consolidating B61 warhead 
variants as soon as production begins in Fiscal Year (FY) 2020 and 
complete the consolidation of the four B61 variants at the completion 
of B61-12 production, currently scheduled in FY 2024. As soon as we 
achieve confidence in the B61-12 LEP, at this time estimated to occur 
around FY 2029 we would retire the B83 and the last remaining B61 
variant. The consolidation is a military requirement that offers 
prudent stewardship of tax payer dollars.
    Mr. Garamendi. Secretary Creedon, are you confident that NNSA can 
manage the 4-5 concurrent LEP workload?
    Secretary Creedon. We are confident that NNSA can manage the 
current scope of work required to meet long-term requirements. 
Concurrency of work remains a concern, and therefore our plan is 
structured not to exceed the capacity of NNSA facilities by sequencing 
programs and by utilizing reuse of components where possible to 
minimize both costs and infrastructure utilization.
    Mr. Garamendi. Is the plan still for a first production unit of the 
W78/88 in 2025? Are there considerations of delaying or canceling the 
W78/88 in the near-medium term?
    Secretary Creedon. The current plan still has the W78/88-1 first 
production unit (FPU) in 2025. Given the expected budget during the 
next five years, there are ongoing discussions about delaying this 
program. Delaying the W78/88-1 would be a difficult decision.
    Mr. Garamendi. How many B61-12 nuclear weapons will be produced, 
and how many rebuilt B61-12 bombs does the U.S. need for deterrence? 
How many are required for tactical use and how many are required for 
strategic use? How many nuclear weapons will be eliminated as a result 
of the B61-12 mod?
    Dr. Cook. That information is available and can be provided in a 
classified format or through a classified presentation.
    Mr. Garamendi. Can the B83 yield be increased and decreased (dialed 
up or down)? Please provide yield options (in classified format if 
necessary). If so, could it serve as the deterrent in place of the B61-
12?
    Dr. Cook. Table 2-1 in Chapter 2 of the classified annex to the FY 
2014 Stockpile Stewardship and Management Plan has yields for all 
current U.S. nuclear warheads. Roles and missions for our nuclear 
warheads are determined by the Department of Defense.
    Mr. Garamendi. a. What is plan B if the currently planned B61-12 
LEP does not get full funding or is delayed, in either FY14 or in the 
following years?
    Dr. Cook. a. To the extent possible, NNSA is committed to providing 
the funding necessary to complete the B61-12 by FY 2020.
    Mr. Garamendi. b. Is a contingency plan being considered?
    Dr. Cook. b. Contingency is always part of our planning process and 
any further delays will require close coordination with the DOD in 
order to maintain the necessary deterrent.
    Mr. Garamendi. c. What are the contingency plans for refurbishing 
the B61 and to maintain our commitments to NATO if the delay for the 
first production unit slips past 2020?
    Dr. Cook. c. These contingency plans consider both the B61-12 
production and the sustainment of the B61-3, -4, -7, and -10s to gap 
any additional delays to the B61 12 program. A classified report was 
provided as part of an addendum to the FY 2013 Selected Acquisition 
Report (SAR), dated May 2013. The classified addendum outlines the 
mitigation strategies and timelines and can be provided if requested.
    Mr. Garamendi. Dr. Cook, you noted that ``Other strategies to 
extend the life of the many current variants of the B61 and the B83 
would likely be double the cost compared to continuing progress on the 
B61-12.'' Please provide a detailed cost assessment comparing the costs 
for the current path (including the currently planned B-61 LEP (3B 
option) and the planned 2033 B61-12 LEP) to (1) the costs for less 
ambitious B61 LEP (1E option) and any required follow-on LEP in the 
2020s (that might take the place of the planned 2033 LEP), and (2) to 
the cost of a B83 LEP.
    Dr. Cook. A detailed cost assessment is not available and would 
require additional time, resources and engagement with the DOD to 
assess requirements and possible alternatives. However, the NNSA's 
Defense Programs, Office of Program Integration recently completed a 
B61 Alternatives Analysis in FY 2013 using rough order of magnitude 
estimates. The analysis considered the current mod consolidation 
strategy versus an alternative that would maintain the current family 
of B61s and the B83 without the B61-12 LEP. While the analysis did not 
specifically call out option 1E, sufficient similarities exist to make 
this comparison applicable. The analysis compared the costs to maintain 
the B61-12 versus the existing gravity bombs stockpile (B61 family and 
B83) over 25-year and 50-year planning windows. For the B61-12 LEP the 
analysis assumed a 20 year stockpile life, and that a second LEP would 
be required in the 50 year planning window. For the existing bombs 
stockpile the analysis assumed non-nuclear alterations on the B61-3, -
4, -7 and B83-1 would be initially performed prior to 2030, and full 
LEPs on both bomb families before 2040. This analysis demonstrated that 
the costs of the B61-12 LEP approach are approximately half as much 
than to maintain the existing bombs stockpile. The B61-12 LEP, as 
currently authorized by the Nuclear Weapons Council and requested in 
the Administration's FY 2014 budget request, is the lowest cost option 
that meets military requirements. Any other alternative would not meet 
military requirements and would drive-up lifecycle costs for these 
modernization activities necessary to realize the President's vision.
    Mr. Garamendi. Dr. Cook, please provide details on how much has 
NNSA spent to date on engineering work for the option 3B option (costed 
versus obligated funds).
    Dr. Cook. As reported in the September 2013 Selected Acquisition 
Report, NNSA has expended $385M of direct program funding for 
Engineering Development. In the B61-12 Report to Congress dated July 
2012, NNSA reported a total of $634M in study and technology maturation 
cost prior to the start of Engineering Development. Including $90M of 
Other Program Money, the total as of September 2013 is $1.1B.
    Mr. Garamendi. Dr. Cook, how does NNSA plan to manage 4-5 
concurrent LEPs without cost increase and schedule delays?
    Dr. Cook. The 4-5 concurrent LEPs referred to are in different 
phases that place different demands on the nuclear security enterprise 
Phase 6.2/2A (Feasibility and Cost Study) activities tend to be focused 
on technology maturation and computationally supported analysis and 
mostly involves the weapons laboratories. Phase 6.3 (Development 
Engineering) is focused on the design and testing of components and 
subsystems that make use of design and computational capabilities along 
with testing facilities at the laboratories and preliminary production 
engineering at the potential production facilities. Phase 6.3 continues 
as Phase 6.4 ramps up as decisions on specific technologies and designs 
are decided upon and the production facilities perform process prove-in 
to ensure war reserves (WR) quality parts can be reliably produced. 
Laboratory involvement in the LEPs tends to peak just prior to FPU 
after which their support is required to resolve production issues. 
Production facilities carry most of the workload/effort following Phase 
6.5 (FPU) and into Phase 6.6 Full rate production. The W76 LEP is 
currently in full rate production to be completed by FY 2019. The B61 
LEP will reach FPU in FY 2020 with Phase 6.3 activities currently 
underway. The cruise missile and IW-1 LEPs have FPUs in FY24 and FY25, 
respectively so most of their Phase 6.3/6.4 activities will occur after 
Phase 6.5/6.6 activities have commenced for the B61. The scheduling of 
these LEPs has been subject to enterprise modeling to establish the 
feasibility of their concurrent execution and to identify and resolve 
potential ``choke points'' in capability. Additionally, the recent 
workforce prioritization study conducted by NNSA determined that the 
NNSA sites were capable of staffing these activities in addition to 
staffing other ongoing critical activities such as surveillance and 
assessment (contingent on the provision of sufficient funding. Critical 
to planning and integrating all these activities will be federal 
leadership. Defense Programs recently reorganized to establish NA-19 
(Office of Major Modernization Programs) to focus management of LEPs 
and major construction projects in support of modernization of key 
capabilities separate from the day to day maintenance of the stockpile. 
Defense Programs also established NA-18 (Systems Engineering and 
Integration) to put systems engineering and integration tools in place 
to better apply these tools to the LEPs, major construction efforts, 
and the overall program.
    In addition, the Office of Infrastructure and Operations was 
established to focus on maintaining, operating, and modernizing the 
National Security Enterprise. It is critical to remember that funding 
for NNSA infrastructure investments is also limited. Funding for NNSA 
infrastructure investments is also limited. This could cause system- or 
facility-level failures in the enterprise that would preclude safe and 
secure operations, causing unplanned delays in the B61 LEP and other 
programs.
    Mr. Garamendi. a. Is the plan still for a first production unit of 
the W78/88 in 2025?
    Dr. Cook. a. Yes, the current estimated FPU for the W78/88-1 is FY 
2025. The W78/88-1 LEP is the first interoperable warhead concept 
supporting the ``3+2'' nuclear strategy of three ballistic missile 
warheads and two air-launched warheads to reduce the numbers and types 
of nuclear weapons, consistent with the Nuclear Posture Review. The 
military requirements, cost and schedule promulgated by the Nuclear 
Weapons Council include requirements derived from both Air Force and 
Navy applications and improve the safety and security of the resulting 
warhead. The feasibility study has been developing options to meet 
these requirements.
    Mr. Garamendi. b. Are there considerations of delaying or canceling 
the W78/88 in the near-medium term?
    Dr. Cook. b. NNSA is working on contingency planning which ranges 
from maintaining the current scope and schedule of the W78/88-1 to 
extending the FPU.
    Mr. Garamendi. What is plan B if the currently planned B61-12 LEP 
does not get full funding or is delayed, in either FY14 or in the 
following years? Is a contingency plan being considered? What are the 
contingency plans for refurbishing the B61 and to maintain our 
commitments to NATO if the delay for the first production unit slips 
past 2020?
    Dr. Hommert. To reiterate, my annual assessment letters have 
documented concerns related to technology obsolescence and aging. While 
the B61 is currently safe and secure, these concerns continue to 
increase. For example, in the past three years, we have observed time-
dependent degradation not seen before in electronic, polymer, and high-
explosive components. This observation is not surprising given the age 
of the B61 weapon system, the oldest units of which were manufactured 
and fielded in the late 1970s with some components dating back to the 
1960s. As planned, the B61 LEP we are currently executing addresses all 
known aging-related issues and meets the minimum threshold requirements
    Regarding extended deterrence, officials in the Office of the 
Secretary of Defense are suited to provide a reply to the question. 
Sandia can provide additional information related contingency plans in 
a closed briefing for Representative Garamendi and the Subcommittee 
staff.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON

    Mr. Carson. There has been significant investigations conducted by 
my colleagues in the SASC on counterfeit microelectronics. I was 
pleased to see the significant work done in my home state at Crane 
Naval Surface Warfare Center to ensure trust in strategic weapon 
systems. As you know, one of the difficulties we face is in identifying 
manufacturing facilities or foundries that produce the counterfeit 
parts and put them into the DOD and DOE supply chain. Could you explain 
the DOE and DOD efforts currently under way to ensure trust in our 
microelectronics for the nuclear weapon modernization program?
    Dr. Cook. DOD and DOE participate in monthly meetings of the 
Trusted Systems Network Roundtable where DOD agencies and commands 
address issues associated with threats to military hardware and 
software, including information technology systems. In addition, the 
NNSA is coordinating with the DOD on Program Protection Plans for the 
B61-12 LEP and the bomb tailkit, respectively. Recently, NNSA has 
expanded efforts to address this vulnerability to the W88 Alt 370 fuse 
replacement. NNSA is coordinating with the Office of Intelligence and 
Counterintelligence to address the any threat to the supply chain 
perpetrated by nation state or other adversaries with intent to subvert 
the NNSA mission. DOE/NNSA is also mandated to participate in the 
Government-Industry Data Exchange Program (GIDEP). Counterfeit items 
identified by DOD and, other participating agencies, which are reported 
to GIDEP, are reviewed within the DOE Office of Health Safety and 
Security (HSS). Any counterfeit item reports deemed to potentially 
affect Program(s) across the DOE, including the NNSA organization, are 
disseminated to the DOE/NNSA Sites and their M&O contractors. DOE/NNSA-
identified counterfeit items are also required to be reported to HSS 
and, if substantive, may also be reported to GIDEP for information 
exchange.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. NUGENT

    Mr. Nugent. Dr. Cook, what impact will a FY14 full year continuing 
resolution have on the B61 LEP?
    Dr. Cook. Under the current CR, the B61-12 is operating at $369M as 
opposed to the PBR of $537M or the Selected Acquisition Report 
estimated requirement of $561M. If the program remains at the $369M 
level through FY 2014, it would significantly impact the ability to 
meet the B61-12 LEP first production unit (FPU) date. The reduced 
funding would require a reduction in the current B61-12 technical staff 
levels, elimination of development hardware procurements, and 
cancellation of joint test activities with the USAF. The lack of new 
hardware would also impact component development activities and testing 
for FY 2015. The FPU in March 2020 could not be achieved, and could 
possibly slip into FY 2021. In addition, funding for NNSA 
infrastructure investments is also limited. This could cause system- or 
facility-level failures in the nuclear security enterprise that would 
preclude safe and secure operations, causing unplanned delays in the 
B61 LEP and other programs.
    Mr. Nugent. The 2010 Nuclear Posture Review states that the B61 
Life Extension Program would deliver a First Production Unit to the Air 
Force in FY17. Last year, the Administration proposed delaying that 
until FY19. Now it appears that sequestration has delayed First 
Production Unit until FY20.
    Dr. Hommert, in your professional technical judgment at what point 
does further delay result in too much risk? Do you believe the B61 LEP 
schedule can be slipped again without impacts to the safety, security 
and reliability of the weapon? What are the primary drivers that might 
cause the schedule to slip again? Is it technical problems, 
programmatic problems or budget uncertainty?
    Dr. Hommert. As described in my annual classified assessment 
provided to Congress (and briefed to the Subcommittee earlier this 
year), known end-of-life component issues and uncertainties in other 
aging mechanisms significantly increase risk with any additional 
schedule slips beyond an FY2020 FPU consistent with the current 
Selected Acquisition Report commitments. However, it is my opinion the 
B61-12 needs to remain aligned with the planned first production near 
the end of FY2020 to assure confidence in the ongoing safety, security, 
and reliability of the weapon in the face of continuing degradation of 
components.
    Regarding schedule drivers, there are two overarching causes for 
slip: technical issues and budgetary changes. With respect to technical 
risk, I have the highest level of confidence that technical issues will 
NOT cause impact to Sandia's schedule performance. With respect to 
budgetary changes, I cannot be as sanguine. In FY13, sequestration 
impacts caused some technical activities to be moved into FY14. We 
estimated the schedule impact of those shifts to be relatively small--
on the order of 2 to 3 months over the life of the program (within 
overall schedule contingency). However, at the time of my testimony, we 
are operating against a FY14 resource allocation that, on an annual 
basis, is at least 23% below the FY14 requirement, as contained in the 
most recent NNSA-approved Baseline Change Requests to the Selected 
Acquisition Report, approved in October 2013. Until the final FY14 
Energy and Water Development Appropriations bill is enacted, NNSA does 
not have the authority to provide a definitive funding level for the 
program. Obviously, unless addressed, budgetary changes of this 
magnitude will have significant schedule impact.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
